<html>
<title> - TRANSPORTATION INFRASTRUCTURE NEEDS IN ALASKA</title>
<body><pre>[Senate Hearing 108-349]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-349

                  TRANSPORTATION INFRASTRUCTURE NEEDS 
                               IN ALASKA

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

OVERSIGHT OF THE TRANSPORTATION INFRASTRUCTURE PROGRAMS IN THE STATE OF 
                                 ALASKA

                               __________

                     APRIL 14, 2003--PALMER, ALASKA

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works



92-373              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texaa                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                     APRIL 14, 2003--PALMER, ALASKA
                           OPENING STATEMENTS

Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......     1

                               WITNESSES

Anderson, Hon. Tim, Mayor, Matanuska-Susitna Borough, Alaska.....    20
Angasan, Trefon, Co-Chair, Board of Directors, Alaska Federation 
  of Natives.....................................................    10
    Prepared statement...........................................    38
Barton, Michael, Commissioner, Alaska Department of 
  Transportation and Public Facilities...........................     6
    Prepared statement...........................................    35
Boyles, Hon. Rhonda, Mayor, Fairbanks, AK, North Star Borough....    17
Cooper, Hon. Jim, Mayor, City of Palmer, AK......................    29
    Prepared statement...........................................    52
Coppe, Cheryl, Executive Administrator for Development, Port of 
  Anchorage, Municipality of Anchorage, AK.......................    24
    Prepared statement...........................................    50
Keller, Hon. Dianne M., Mayor, City of Wasilla, AK...............    30
    Prepared statement...........................................    53
Leman, Hon. Loren, Lieutenant Governor of Alaska.................     2
    Prepared statement...........................................    34
Masek, Hon. Beverly, Co-Chair, House Committee on Transportation, 
  Alaska House of Representatives................................    12
    Prepared statement...........................................    37
Reilly, Eileen, Vice President for Projects, Alaska Railroad 
  Corporation....................................................     8
Staser, Jeffrey, Federal Co-Chairman, Denali Commission..........     4
    Prepared statement...........................................    36
Wuerch, Hon. George P., Mayor, Municipality of Anchorage, AK.....    15
    Prepared statement...........................................    49
Zimin, Carvel, Jr., President, Bristol Bay Borough Assembly......    27
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

Letters:
    Aleutian/Pribilof Islands Association........................    45
    Bristol Bay Native Association...............................    46
    State Senator John J. Cowdery................................    55
Memorandum, Alaskan Federation of Natives........................    45
Statement, Loretta Bullard.......................................    55
  

 
             TRANSPORTATION INFRASTRUCTURE NEEDS IN ALASKA

                              ----------                              


                         MONDAY, APRIL 14, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Palmer, Alaska.
    The committee met, pursuant to notice, at 9:30 a.m. in 
Matanuska-Susitna Borough Assembly Chamber, Palmer, Alaska, 
Hon. Lisa Murkowski [acting chairman of the committee] 
presiding.
    Present: Senator Murkowski.

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Good morning. I am Senator Lisa 
Murkowski, and I will be chairing this morning's hearing of the 
Senate Committee on the Environment and Public Works.
    My intention is to take testimony on needed changes to the 
Federal highway program, and to provide the committee with 
other information on Alaskan transportation issues.
    I also want to record my thanks to the chairman of the 
committee, Senator Jim Inhofe of Oklahoma, and to the ranking 
member, for allowing us this opportunity to get Alaskans' views 
on the record before the committee completes its work on a new 
highway bill, which will provide a blueprint for Federal 
programs for the next 6 years.
    The chairman is represented today by Mr. James Qualters, a 
member of the committee's professional staff. I am also 
accompanied by Mr. Bill Woolf, my aide for transportation 
issues and many other matters, by my Legislative Director, Mr. 
Jon DeVore, by Pat Heller, who manages my Alaska offices, and 
last but not least, by Carol Gustafson, who tells me what to do 
when I'm here in the Valley.
    We have a number of other distinguished guests this 
morning, but since most of them are here to testify, I will 
wait to introduce them when we reach that point.
    Before we begin, I'd like to provide a few background notes 
on how Congress is approaching the task of writing a new 
highway bill. To date, the committee has held several hearings 
on various aspects of the overall highway program. In June, the 
committee will begin the process of marking up the various 
sections of the bill, and the chairman hopes to have the 
committee process complete by the end of June.
    As most of you know, Congressman Young is the chairman of 
the equivalent committee of the House of Representatives, and I 
look forward to working with him, and with all of you, to 
develop a highway bill that recognizes Alaska's many 
transportation needs, from highways to snowmobile trails.
    As you may also know, the House and Senate approach this 
task in a slightly different way. While the House encourages 
the inclusion of funding earmarks for certain high-priority 
projects, the Senate typically does not. At the end of the day, 
the two chambers will reach a compromise.
    Let me be very candid, it will not be easy to craft a bill 
that accomplishes everything that needs to be done. Many States 
are already struggling to handle increasing demand with an 
aging infrastructure, while we in Alaska are still trying to 
build an adequate infrastructure. We had hoped to be able to 
work with a figure totaling $255 billion over the next 6 years. 
Unfortunately, we may not be able to reach that point. The 
budget resolution adopted by Congress last week provides for 
$231 billion in transportation spending over the 6 years. That 
is considerably more than the current limit, but will still 
mean fierce competition for scarce dollars, something we 
already know and recognize on a daily basis in the State.
    I have introduced a bill to establish the ``Denali 
Transportation System'' and if adopted, it will provide a new 
way for Alaska to meets its transportation needs. It would 
allow the Denali Commission to construct roads and other 
access-related facilities using a separate appropriation of 
Federal funds.
    The Denali Commission does not fall within the jurisdiction 
of this Senate committee, and although this committee does not 
encourage funding earmarks, I believe it is important for the 
other members of the Senate committee to be made aware of the 
extent of Alaska's transportation needs. For that reason, 
today's comments will not be limited in that respect.
    It would be impossible to accommodate everyone who has an 
interest in this issue and would like to speak, but we are 
doing our best, and have a long list of witnesses. Because of 
the limitations we do have on our time, I would ask that all 
the witnesses limit their testimony to no more than 5 minutes. 
We will accept written comments of any length, not only from 
today's witnesses but also from anyone in the audience who 
would like to submit them. Written testimony can be submitted 
by e-mail, and will be accepted up to 2 weeks from today.
    With that, let us turn to our first panel today. I'm 
pleased to welcome Alaska's Lieutenant Governor, Loren Lehman; 
the Commissioner of the Alaska Department of Transportation and 
Public Facilities, Mr. Mike Barton, and Jeff Staser, the 
Federal co-chair of the Denali Commission.
    Lt. Governor Lehman, would you lead off?

  STATEMENT OF HON. LOREN LEMAN, LIEUTENANT GOVERNOR OF ALASKA

    Lieutenant Governor Leman. Thank you and good morning, 
Senator Murkowski.
    On behalf of Governor Murkowski and me welcome to Alaska 
and he sends his special greetings to you.
    Senator Murkowski. Hopefully he is feeling better this 
morning.
    Lieutenant Governor Leman. He was cantankerous the last 
time I visited with him.
    In Alaska, the vast distances and rugged terrain mandate 
using multiple linked modes, including marine, air, and land 
transportation systems. As you well know and we will learn even 
better, Alaska is the largest State in the Union, comprising 
one-fifth of the total area of the contiguous United States. I 
say that because many on your committee are not as fully aware 
of that. Yet, it has only 13,628 miles of roadways, less than 
the State of Vermont.
    Only a few communities in our State have full accessibility 
the variety of travel modes common to most communities in the 
Nation. Nearly 90 percent of Alaska's communities depend on 
aviation for year-round access. These off-highway systems 
communities rely entirely on aviation for food, groceries, 
health care supplies, mail and transport to urban Alaska and 
elsewhere in our country.
    The State of Alaska plans to continue building and 
upgrading our entire transportation infrastructure, including 
roads, airports, marine highways, harbors, and railroad to 
provide services to Alaskans and our visitors. Improvements 
will offer benefits including safety, consolidation of health 
and education services, access to resources, and work 
opportunities and lower costs. These improvements are essential 
to our economic growth and security.
    It is difficult to convey to those for whom Alaska is not 
home what it is like to rely on an airplane for a medevac in a 
remote community. My chief of staff, who spent time in Cold 
Bay, has had the experience of waiting and waiting while a 
helicopter transporting a patient receiving CPR flew the 
shoreline for 45 minutes in blowing snow because the pilot 
could not see anything else. If the weather had been a little 
worse the helicopter could not have made the trip. A road in 
that region on the Alaska Peninsula would provide additional 
access between those communities. When power and phone lines go 
down because of high winds that reduces a remote community's 
options for delivery of health care because not only will the 
community likely be out of reach for advanced medical advice, 
but the planes won't be flying either.
    I was raised, as were you, in this beautiful State, and in 
my professional life, especially before I became Lieutenant 
Governor, I was actively involved as a consulting civil 
engineer. I traveled extensively throughout Alaska and am quite 
familiar with its transportation systems as well as its utility 
systems. I will note that we face unique challenges but we are 
up to the task.
    One of our Administration's primary missions is to assist 
in the building of a robust, growing economy that contributes 
to our Nation's security, food and resource needs. We want good 
job opportunities so families can care for their needs and our 
young people may have opportunity to work and live in Alaska.
    An essential part of this economic opportunity is new and 
improved infrastructure across our State and access to our 
resources. This includes acquiring historic transportation 
rights of way, something we have actively pursued for years and 
a topic I testified about before another Senate committee 
chaired by another Senator Murkowski.
    I am encouraged by the Department of Interior's new RS2477 
agreement with Utah. That is good news for all western States. 
We will continue to work the commitment to the Federal 
Government has made to Alaska. Access improvements will bring 
many benefits, expanded transportation will improve access to 
health care and educational opportunities. It will also reduce 
the cost of living, for example, for groceries, fuel, power, 
building supplies and improvements in economies of scale 
available through access will allow better and broader use of 
government investments in schools, bulk fuel farms, health 
clinics, airports and harbors.
    In closing, thank you for your interest in our 
transportation needs and for this field hearing. The Governor 
and I will work cooperatively with you to resolve them and we 
hope that you can share this information with your colleagues 
so they will better understand the challenges Alaskans face 
daily.
    Senator Murkowski. Thank you. I appreciate your comments 
this morning.
    Now let's go to Mr. Jeff Staser with the Denali Commission.

   STATEMENT OF JEFFREY STASER, FEDERAL CO-CHAIRMAN, DENALI 
                           COMMISSION

    Mr. Staser. Thank you, Senator Murkowski and thank you for 
coming home and this opportunity to hear from us.
    I would like to offer my comments for the record in written 
form and use whatever time I have to answer questions you may 
have.
    Senator Murkowski. If you could in as general terms as 
possible describe the Denali Commission's approach to 
addressing basic infrastructure needs and how this could be 
applied in the transportation arena through collaboration and 
sustainability?
    Mr. Staser. The vision to date with about 4 years of 
experience has succeeded in being a catalyst for positive 
change by forming collaborations and our problem-solving 
approach through community-based and regional supported 
planning processes. We won't go where communities don't invite 
us. One of the criteria to invite us is an acknowledgment of 
our criteria for sustainability. It must be accepted that it's 
a life cycle approach to any structure we build. To date we 
have 50 clinics and hospitals under construction and about 25 
fuel source facilities that all meet these criteria.
    The collaboration of State, Federal and nonprofit and local 
communities has been extraordinary. Alaskans have risen to the 
challenges.
    Senator Murkowski. In your written testimony, you mention 
transportation infrastructure being the missing link and there 
are a couple other references where you focus on transportation 
as an integral part to effective and efficient delivery of 
services across the State. Could you explain to the committee 
what that really means here in Alaska.
    Mr. Staser. Yes. A colleague of mine reported to Congress 
earlier, his name was Sheldon Jackson. His report was dated 
1886. He answered that question about page five or six of his 
report. Talking about Alaska's transportation challenges, he 
starts with the sentence, very few, even of the more 
intelligent portion of American citizens comprehend its extent 
and physical characteristics. He goes on to explain that in 
part by saying, ``Alaska is as large as all of the New England 
and middle States together with Ohio, Indiana, Illinois, 
Wisconsin, Michigan, Kentucky and Tennessee combined or as 
large as all of the United States east of the Mississippi River 
and north of Georgia and the Carolinas.'' He goes on explaining 
the impact that has on the need in his mission of education for 
better transportation access. He was literally at the time 
traveling tens of thousands of miles by sea by small boat and 
it's not much different today. Small aircraft have helped but 
the challenge is still there and well articulated by Mr. 
Jackson. That was in 1886.
    Senator Murkowski. It's a shame we haven't been able to 
note any substantive differences since then.
    The big challenge that we have in Congress is truly 
educating our colleagues about the extent of Alaska's unique 
geography. We will need the assistance of those of you in the 
Denali Commission and those of you here to testify or listen 
today to explain to the rest of the world that we don't have 
the same concerns, the same problems that most other States 
have because we just don't have the infrastructure yet.
    Mr. Staser. That is absolutely the crux of the issue for 
us. We have found in the last 4 years the two things that make 
Alaska different are the climate and the isolation. The 
isolation in terms of public policy is profound. Here we have 
communities that are totally dependent on subsistence fisheries 
and yet agencies don't allow any dollar value for that when 
they do their benefit to cost analysis for whether or not they 
should build a harbor. It seems to me we're missing something 
in the same communities where maybe 40 percent of the diet 
comes across a port are not qualified for assistance in 
building that port because it is not recognized, there's not a 
dollar value put on that subsistence. That is an administrative 
change that could have a profound impact on economic self-
sufficiency in order to feed those folks to have access to the 
sea and access to economic self sufficiency.
    Another interesting quirk in Federal programs from my 
perspective is what we learned on commissions, we have 
unemployment statistics that disguise the true problem because 
of the way the statistics are defined. If you are not actively 
seeking a job or not receiving unemployment insurance, you're 
not unemployed. So you go to a community where access to a job 
may be 1,000 miles away by small boat or small plane, so the 
worker can't get to the job. They are not actively seeking that 
job, they don't have a job because maybe there's only five 
paying jobs in the entire community. If all five jobs are 
filled in a community of 250 people, does that mean they have 
100 percent employment? Yes, according to Federal statistics.
    I think there is a need to review how we measure the 
problem so we can react to those kinds of issues. Access to 
services that are taken for granted elsewhere, we assume our 
veterans in Alaska, we have a very high percentage of veterans, 
have access to the VA hospital. How do they get there? There 
are no roads and no rail. The collaboration locally and regions 
to have access to common fuel source facilities for three 
communities, if they could drive to the gas station, that could 
save tremendously on having to create separate, decentralized 
facilities for all.
    Senator Murkowski. Why is it going to be in the Federal 
Government's best interest to address Alaska unique 
transportation needs?
    Mr. Staser. I think the Denali Commission has offered us 
all an opportunity to see the comprehensiveness of it all, how 
one issue affects another. I think it's in the Federal interest 
to promote access to the marketplace to level the playing field 
of other States and other economies. If you've got a work force 
engaged in economic opportunity, there is an impediment to that 
today and that's transportation.
    We were looking at doing a power project in Bethel and the 
regional authority for the corporation did some research on the 
project and determined it is economically beneficial to import 
coal from Canada because there is no infrastructure in Alaska 
to get coal which Alaska has one-fifth of the world's known 
resource of coal to its own communities.
    When we started building bulk fuel facilities we looked at 
where we get the steel and where we fabricate most cost 
effectively and that was Seattle. Half the steel comes from 
Canada, fabricated in Seattle and shipped to our rural 
communities because of the lack of infrastructure.
    Senator Murkowski. We have a long ways to go but I 
appreciate what you and the Denali Commission are doing to help 
spotlight some of the infrastructure needs. Thank you very much 
for your comments. Is there anything you'd care to add?
    Mr. Staser. The only success the commission has had is by 
working with and through other agencies and helping to have 
some flexibility in Alaska. That's one of the things we can do 
is to collaborate an approach to problem solving. I think all 
our partner agencies would say that seems to be working.
    We'd like to encourage that the Administration, State and 
Federal, work together in solving the access issues.
    Senator Murkowski. Thank you.
    At this time, let's bring to the table, Commissioner 
Michael Barton of the Alaska Department of Transportation and 
Public Facilities. Welcome, Commissioner.

STATEMENT OF MICHAEL BARTON, COMMISSIONER, ALASKA DEPARTMENT OF 
              TRANSPORTATION AND PUBLIC FACILITIES

    Mr. Barton. Thank you.
    I appreciate the opportunity to be here today to discuss 
some of Alaska's transportation needs.
    As Lieutenant Governor Leman pointed out, due to the size 
of the State and the relative immaturity of our infrastructure, 
transportation plays a particular critical role in the lives of 
Alaskans. No where else in the U.S. is the cost of an apple and 
a trip to the doctor or the ability to access resources more 
directly affected by transportation.
    As you well know, the great scale of our State presents 
some challenges but in addition to that, our geographic 
diversity is also an opportunity for us. Because of this 
diversity, Alaska is the leader i providing multimodal 
transportation services to our residents. The Alaska Marine 
Highway in southeast, the railroad, roads and highways of south 
central interior and the snow machine trails of rural Alaska 
and the ports and harbors of the coast as well as the many, 
many airports that connect our State, this system remains an 
essential element for growth and economic opportunity.
    To that end, Governor Murkowski has pledged to develop new 
transportation infrastructure while continuing to improve the 
existing infrastructures. The Governor has identified four 
projects that we recommend for high priority funding. Those 
projects are: the Gravina Island Bridge in Ketchikan which 
connects the community of Ketchikan with Gravina Island and its 
airport. This direct link will improve travel times, costs, and 
convenience, as well as remove the need to maintain and operate 
two ferries. The bridge also provides access to new lands that 
are suitable for residential, commercial, and industrial 
purposes. This project received startup funding as a TEA-21 
high-priority project.
    Second is the Juneau Access Project which will improve 
surface access to the State's capital. A 65-mile road along the 
Lynn Canal is the State's preferred alternative. The project is 
an essential link in the new regional transportation system.
    Third, the Knik Arm Crossing will connect Anchorage with 
the Matanuska-Susitna Valley via a new highway and rail bridge. 
This project will significantly reduce travel times between the 
State's three main population centers  Anchorage, Fairbanks, 
and the Mat-Su Valley  and will help to spur economic 
development.
    The Bradfield Canal Road Project would provide road access 
from Southeast Alaska to the Cassiar Highway in British 
Columbia and on to the contiguous 48 States.
    In addition to these four projects, the Governor has also 
established two new programs to develop new roads in rural 
Alaska. These programs will provide new transportation links to 
and between communities and new access for the development of 
the State's vast natural resources.
    Federal assistance in funding these programs is also of 
national importance since Alaska lands contain vast raw 
materials needed for our economy.
    In addition to high priority projects, I have submitted 
some general principles which should be retained in the 
reauthorization of TEA-21. There are several provisions that 
are specific to Alaska which should be retained. I look forward 
to working with you and Congress and Senator Stevens to address 
those.
    In closing, Alaska is a unique State with sizable and 
varied transportation needs. The vast amount of Federal land in 
Alaska has sometimes presented challenges in meeting those 
transportation needs. lt is critical that we continue to 
receive Federal support to expand and improve our 
transportation systems so that the needs of Alaskans and the 
country can be met.
    I would be happy to answer any questions.
    Senator Murkowski. Thank you. I appreciate the focus the 
Administration has placed on transportation infrastructure and 
access to our resources. We know that is one of our big 
development problems if you will. You can't have economic 
development if you don't have transportation systems in place, 
the workers to do it and the highly trained work force and 
reliable energy. Transportation has got to be in there, so I 
appreciate the focus and spotlight that has been placed there.
    With regard to the community access roads and the economic 
development roads, the two new programs that have been 
instituted, how do you intend to prioritize? Where do you 
start? Mr. Barton. That's a good question and we have been 
working through that. The obvious answer is you start where the 
highest payoff is and the quickest payoff. We have been looking 
at a number of possibilities around the State, particularly in 
the economic development category and focusing on those roads. 
We are still in the process of identifying the highest 
potential payoff.
    Senator Murkowski. I imagine the Administration will be 
working with the Denali Commission to identify and prioritize 
and figure out how we make these access roads, the economic 
development roads happen. As you say, we have to start 
somewhere and you typically look to where the highest payoff 
can be.
    We look forward to many of these projects coming on-line. 
We appreciate your time this morning and thank you for joining 
us and for the information you provided to the committee. We 
look forward to working together.
    We will now move to the second panel which consists of: The 
Honorable Beverly Masek, Co-Chair of the House Committee on 
Transportation, Alaska House of Representatives; Ms. Eileen 
Reilly, Vice President, Projects, Alaska Railroad Corporation; 
and Mr. Trefon Angasan, Co-Chair, Board of Directors, Alaska 
Federation of Natives.
    I understand that Representative Masek may not yet be with 
us this morning, so we will wait to hear her comments when she 
arrives. Ms. Reilly, welcome. Mr. Angasan, if you would like to 
joint Ms. Reilly at the table, that would be fine.
    Ms. Reilly, why don't we begin with you. Welcome to the 
committee this morning.

 STATEMENT OF EILEEN REILLY, VICE PRESIDENT, PROJECTS, ALASKA 
                      RAILROAD CORPORATION

    Ms. Reilly. Thank you, Senator Murkowski.
    Alaska Railroad is a vital component of the transportation 
infrastructure for the entire State of Alaska. The railroad is 
comprised of 611 miles of track from Seward to Fairbanks and 
supports vital transportation needs for the entire State of 
Alaska providing links to and from other modes of 
transportation. The Alaska Railroad connects three major deep 
water ports, Anchorage, Whittier and Seward complementing the 
National Highway System.
    Alaska Railroad supports the economic development of the 
communities through which it travels. We have come to 
understand our planning efforts must become more fully 
integrated with community need and desires. We have tried to 
integrate our planning efforts with many communities. Some of 
those are the Anchorage Metropolitan Area Transportation 
Committee, the Metropolitan Planning Organization of Fairbanks, 
and are an active participant in the informal Regional 
Transportation Planning Organization comprised of the 
Municipality of Anchorage, the Borough, the Alaska Railroad, 
the U.S. military and State legislature.
    The railroad community outreach program ensures the public 
has an opportunity to comment on railroad plans and projects. 
We provide a lot of technical advice and support such as the 
Palmer Urban Revitalization Project, Pt. McKenzie Road and Rail 
Corridor Study, Meadow Lakes Long Range Plan, Wasilla Area 
Intermodal Planning Study, the Fairbanks Rail Task Force and 
the Knik Arm Crossing Study.
    As you know, this is an important year for the TEA-21 
reauthorization. The ARRC is very pleased that you have a key 
committee position and support the leadership you have already 
shown. We have applied for FHWA high priority funding to 
support the growth of our communities for Fairbanks, Nenana and 
Wasilla. We have provided under separate cover those projects.
    The Alaska Railroad believes in our mission of being a 
safe, high quality service and transportation provider to our 
freight, passenger and real estate customers. We believe in our 
mission to foster development of the Alaska's economy by 
integrating railroad and railbelt community development plans. 
The Alaska Railroad fully supports the Knik Arm Crossing as a 
vital road/rail link which will dramatically expand opportunity 
for development in the Matanuska-Susitna Valley.
    The Crossing will dramatically improve the velocity of 
transportation movement throughout the entire region and its 
effects will be felt statewide. The Crossing, however, is only 
one piece of the total project. An equally critical component 
will be the connector on each side of the Crossing. Adequate 
transportation links will be vital to achieve all the benefits 
this vital project makes possible.
    As the State looks at other opportunities to grow the 
Alaskan economy, the Alaska Railroad will take its lead from 
State and Federal policymakers regarding rail extension 
initiatives. The Alaska Railroad support extending and building 
new railroad links and believes this falls under its mission to 
foster State and community economic development.
    The State will need congressional support to obtain capital 
funding for these initiatives that are important to the growth 
and development of the Alaska economy. A rail link joining 
Alaska and Canada could serve vital national security interests 
as well as developing a new transportation link to the lower 
48. A rail link west of Nome will enable development of world 
class reserves of mineral resources in the Kobuk Valley and 
other deposits.
    I would like to thank you for the opportunity to speak 
about the Alaska Railroad as a vital transportation provider.
    Senator Murkowski. Thank you. I appreciate your coming and 
do recognize what a key component the Alaska Railroad is in our 
transportation system across the State.
    You mentioned two potential rail projects, a link across 
Canada as well as the spur to Nome. Is the railroad 
contemplating anything else in terms of a rail link or a rail 
spur?
    Ms. Reilly. At this time, we don't have current plans. 
We're working on some of the strategic planning options for 
Canada. First, that might be to go Fort Greeley and Delta and 
help provide support there. We are looking at the potential to 
get to Nome but that is where our efforts are focused right 
now.
    Senator Murkowski. You mentioned the connector and the 
Crossing and I am pleased that in your written testimony you 
note the importance of not just the Crossing itself but 
recognize once we get to the other side, you have to have the 
transportation links happening over there. It doesn't do us any 
good to put a bridge to the other side and not have it tie in 
with anything else. I appreciate the focus you made to that 
issue. Do you believe the connector Crossing should include 
rail?
    Ms. Reilly. We absolutely believe it should, it's a vital 
part of the community, of the transportation infrastructure. If 
you want to be a world class developmental resource community, 
taking that step to connect with the railroad would keep an 
awful lot of trucks off the highway.
    Senator Murkowski. I know we are talking very preliminarily 
at this point in time but our discussions perceive that the 
Knik Arm Crossing, the railroad is a partner in those 
conversations?
    Ms. Reilly. We absolutely are. We've been working with the 
different communities as well as the Hayes engineering firm 
that's been working on the Knik Arm Extension. We've been 
actively involved in looking at the options, making sure we 
have identified the Corridor.
    Senator Murkowski. Thank you. I appreciate your testimony 
this morning on behalf of the railroad and we look forward to 
working with you.
    At this time, let's go to Mr. Trefon Angasan, Co-Chair, 
Board of Directors, Alaska Federation of Natives. Good morning.

  STATEMENT OF TREFON ANGASAN, CO-CHAIR, BOARD OF DIRECTORS, 
                  ALASKA FEDERATION OF NATIVES

    Mr. Angasan. On behalf of the Alaskan Federation of 
Natives, we'd like to take a few of our 5 minutes to extend our 
congratulations to you as the new Senator. We look forward to 
working with you in Washington as we address some of the issues 
that we're going to be dealing with.
    For the record, my name is Trefon Angasan, Co-chair, Board 
of Directors, Alaska Federal of Natives. As you may already 
know, AFN is a statewide Native organization formed in 1966 to 
represent Alaska's 100,000-plus Alaska's Eskimos, Indians and 
Aleuts on concerns and issues which affect the rights and 
property interests of the Alaska Natives on a statewide basis.
    On behalf of AFN, it's Board of Directors and membership, 
thank you very much for inviting AFN to participate in this 
process. It is a privilege and honor to testify in front of 
your committee.
    I'd like to note that you extended the opportunity for the 
membership and the general public to submit testimony up to 2 
weeks after today's hearing and we appreciate that opportunity 
as well because we do have Federation membership who will be 
submitting testimony to you in this regard.
    Rural Alaska is home to more than 200 villages and in many 
of those villages, unemployment ranges from 60 to 80 percent. 
Many of the people in rural Alaska are unemployed and will 
remain unemployed, not because they do not want to work, but 
because for all practical purposes, there are no jobs other 
than jobs provided by the village corporations, the IRAs and 
other governmental agencies in rural Alaska.
    Pursuant to the terms and conditions of the Alaska Native 
Claims Settlement Act, enacted into law on December 18, 1971, 
Congress authorized transfer of 44.3 million acres of land back 
to the Alaska Natives through their ANCSA corporations. ANCSA 
promised, in part, that the settlement of the claims of the 
Alaska Natives against the Federal Government ``should be 
accomplished rapidly with certainty in conformity with the real 
economic and social needs of Natives.''
    To date, none of the village and regional ANCSA 
corporations created pursuant to ANCSA has received their full 
land entitlements. One of the reasons for this delay is the 
lack of funds needed for the survey of the lands selected by 
the ANCSA corporations.
    The ANCSA corporations, in particular the regional 
corporations, selected their land entitlements based on natural 
resources explorations they conducted on the withdrawn lands 
from which they may select their land entitlements. Red Dog 
mine on the NANA Regional Corporation is an example of a 
successful land selection process by a regional corporation. 
One of the primary reasons why the Red Dog Mine is a success is 
access to the land where the zinc is located.
    Not all of the ANCSA lands with natural resource potential 
are being developed at the present time. Two of the primary 
reasons for this are the lack of affordable electricity and 
lack of infrastructure in place. The case in point on this is 
the Donlin Creek properties. It is estimated that Donlin Creek 
property has 11 million measured and indicates ounces of gold 
with a cutoff of 1.5 grams of gold per ton.
    New studies undertaken by the Alaska Federation of Natives 
show that little has changed since 1994 when the Alaska Natives 
Commission concluded in its final report that ``acute and 
chronic'' unemployment was undermining Native society. Simply 
put, Alaska Natives need more jobs and economic opportunities 
in both the urban areas where many people have migrated because 
of the depressed economic conditions in their home communities, 
and in rural Native villages.
    One of the means of creating jobs and economic development 
opportunities in rural Alaska is access to affordable 
electricity as well as development of transportation 
infrastructure. I believe that improving the transportation 
infrastructure in rural Alaska is a critical cornerstone to 
promoting economic development opportunities in rural Alaska. 
It will result in impressed access, lower cost of living where 
it is really needed. In summary, we are excited about the 
opportunities to participate. You are probably looking at the 
most innovative way of infrastructure development in Alaska 
with the Denali Commission and we appreciate sitting here 
listening to his presentation as well.
    On the last panel today is Carvel Zimin, Jr. from the 
Bristol Bay Borough. He is probably going to advocate for a 
bridge and I'd like to go on record in support of that effort.
    Thank you very much.
    Senator Murkowski. Thank you.
    Tomorrow, I'm going to be speaking to the Tribal 
Transportation Symposium, the first symposium of its kind 
bringing representatives from across the State from various 
tribes, various communities and I am excited to hear what they 
have to say about the needs in their area. It will be a great 
opportunity for me to learn more from the very remote areas 
what we need to do from their perspective.
    Before we let you off the hot seat, perhaps I will learn 
this a bit more tomorrow, but does AFN have any mechanism for 
prioritizing projects? You stated you are officially on record 
supporting the bridge. How does AFN go about prioritizing?
    Mr. Angasan. Part of a presentation that AFN prepared has 
enclosed a process of how we develop our priorities. Every year 
in October, AFN has an annual convention. At the convention, 
the membership of 200 plus villages, 13 regions and the entire 
Native community comes to Anchorage to attend the Alaska 
Federation Convention. At the convention, they pass 
resolutions. There are a number of resolutions that were 
passed. I believe there were five resolutions passed that 
addressed roads in rural Alaska specifically.
    Senator Murkowski. Is that part of your written statement?
    Mr. Angasan. As part of my presentation, there is a copy of 
a February 7 letter from Mr. Demitri Philamala the president 
and CEO the Aleutian Island Association. We also have a letter 
dated February 14 from Mr. Terry Heperly, the Chief Operating 
Office for the Bissil Bay Native Association. On March 11, 
there is a letter from Loretta Bullock. I understand she's been 
invited to participate here. In the letter, she defines the 
transit needs so we do have a process to our madness in coming 
here. We solicit input from our membership and we referee the 
process. That's probably why I'm chairman of AFN because I'm a 
good referee.
    Senator Murkowski. Thank you. I appreciate your testimony 
and look forward to working with you.
    Mr. Angasan. I will leave a copy of this with you.
    Senator Murkowski. I appreciate you being here and look 
forward to that written testimony.
    Next let's go to the third member of panel two, the 
Honorable Beverly Masek, Co-Chair, House Transportation 
Committee. Beverly, it is wonderful to see you here this 
morning. Thank you for joining us. It's always nice to see my 
former colleagues and hear that all is well in Juneau.

 STATEMENT OF HON. BEVERLY MASEK, CO-CHAIR, HOUSE COMMITTEE ON 
        TRANSPORTATION, ALASKA HOUSE OF REPRESENTATIVES

    Ms. Masek. Good morning. Thanks to the members of the 
committee for being here today and welcome back to Alaska. I 
know you have a very tough schedule and there is a lot to do.
    For the record, my name is Beverly Masek. I am currently 
the Co-Chair of the Alaska House Transportation Committee.
    The opportunity to come before you today causes me to think 
about what is the mission of the U.S. Department of 
Transportation. In my mind it is to ensure a safe, accessible 
and convenient transportation system that meets the national 
interests, Alaska's statewide and local interests, and that 
improves the quality of the life of everyone.
    Transportation in Alaska is very unique. As a former 
Iditarod Trail dog musher, I can personally attest that in this 
year of 2003, modes of transportation here in Alaska remain 
primitive on the one extreme, to reasonably modern on the 
other. From the west coast of Nome to the interior city of 
Fairbanks, the primary transportation link is either by boat, 
four wheeler or walking int he summer, to snow machines and 
sled dogs in the winter, or in the modern sense, by aircraft. 
No roads exist.
    From the north slope community of Dead Horse to the 
southcentral community of Homer, the road transportation system 
consists of gravel highways to two lane roads to a modern four 
lane stretch of highway. Each is unique in both form and 
structure.
    In southeast Alaska, the marine highway system serves as 
the primary mode of transportation that connects each 
community, including the capital city of Juneau.
    The primary method that brings everything together is 
airports. Air service provides the vital link to most 
communities in Alaska.
    What can the U.S. Department of Transportation do to help 
Alaska build and grow? There is no question that Federal 
funding for transportation projects and infrastructure 
development is vital to the growth of the State. Specifically, 
the Knik Arm crossing connecting Anchorage with the Mat-su 
Valley via a new highway and rail link, is by far the most 
costly, yet the most important project that can and should be 
completed.
    Anchorage being bordered by mountains to the south, east 
and north, and bordered by Cook Inlet to the west has pretty 
much grown to capacity. Not only will this crossing reduce the 
transit time into Anchorage, it will open the vast acreages of 
the western peninsula to both business and residential 
development. This link is vital to the future growth of 
southcentral Alaska and I would encourage any venue for funding 
available be pursued to make this great endeavor a reality.
    In western Alaska, community access roads would be a big 
step forward in starting to connect our remote communities. 
Later on, these communities could hopefully be linked to the 
Alaska highway system. These new links will also enhance 
development of our vast resources, helping reduce dependence on 
Canadian and other foreign minerals and resources.
    In southeast Alaska, their economic survival depends upon a 
road link to the Cassia Highway via Bradfield Canal is 
critical. Also, a road link to our State capital via either the 
Taku Channel or Lynn Canal is vitally important to connect all 
Alaskans to the State government and to our capital which is in 
Juneau.
    Let's not just focus on roads. The airport system in Alaska 
is crucial to our economic vitality, not just to provide 
important links between communities, but to provide job 
opportunities for Alaskans. For example, at Ted Steven's 
Anchorage International Airport, cargo tonnage is fourth in the 
entire Nation. This capacity can be increased substantially by 
alleviating all cargo transfer restrictions among the airlines 
utilizing the facility. This is a very high priority for us.
    It will also enable aviation carriers to bring America's 
imported commodities to other U.S. markets in a more timely 
manner, thus holding the line on costs of goods. We are working 
hard to create expanded opportunities for both U.S. and foreign 
cargo carriers. Enhancements to Ted Stevens Anchorage 
International Airport that will enable larger and more frequent 
landings are crucial to the economic stability in Alaska.
    As you consider reauthorization of TEA-21 funding, at a 
minimum the Alaska exemptions and flexibility provisions must 
be preserved. If not for those exemptions, most of the needed 
transportation infrastructure in Alaska could never be built.
    In closing, among your colleagues on the committee, the 
word rural will have different meanings depending on where they 
are from. For example, if I lived in Vermont, and took State 
Route 4A from Castelton to Rutlant, I would consider that 
rural. In Alaska, when you think and understand rural, you 
think of how to hitch up the dog team, catch the next flight, 
or find fuel for your snow machine. It is a vastly different 
concept and with your understanding of this concept, will come 
the understanding that without continued and substantial 
Federal funding and support, Alaska is inhibited in its ability 
to become a modern State by expanding and improving our 
transportation system.
    Thank you very much for coming to Alaska to listen and 
understand the complexity of our transportation needs and 
issues faced by all Alaskans. Thanks for being here and 
allowing residents of this State to participate in this forum.
    Having served on the Transportation Committee for about 9 
years, I believe that transportation plays a very vital role in 
every Alaskan's livelihood. I commend your efforts and your 
staff for providing us with the venue to present to you.
    If you have any questions, I would be glad to answer them.
    Senator Murkowski. Thank you.
    You point out a very clear example of part of the problem 
we have in Alaska. Everyone has a different definition of what 
rural is. To most of my colleagues, rural means you're on a 
long, bumpy, dirt road that eventually takes you to a small 
town. We would be happy to have a long, bumpy, dirt road but it 
doesn't exist. As you point out, those means of connection are 
simply not out there in the vast majority of the areas of our 
State. So we need to be talking about the same definition of 
rural. In Alaska, it is not consistent with the rural 
definition in any other part of the country as far as I can 
tell.
    I appreciate your being here this morning on behalf of the 
legislature. We had invited Senator Coudry to join us as well 
from the Senate Transportation Committee but I understand his 
legislative obligations didn't allow him to be here this 
morning.
    I appreciate your comments and I wish the legislature every 
degree of success as you pursue the transportation priorities 
because as you point out, if we don't have the adequate 
transportation and the means to gain access to our communities, 
we are no further ahead. I appreciate your coming.
    Now let's go to Panel Three and with us this morning for 
the third panel is the Honorable George Wuerch, Mayor, 
Municipality of Anchorage. Since we only have room at the table 
for two, let's have Mayor Wuerch joined by the Honorable Rhonda 
Boyles, Mayor of the Fairbanks North Star Borough. We will take 
you two first and move to the second half after that.
    Good morning and welcome.

  STATEMENT OF HON. GEORGE P. WUERCH, MAYOR, MUNICIPALITY OF 
                       ANCHORAGE, ALASKA

    Mayor Wuerch. Good morning, Madam Chair and members of the 
committee staff.
    My name is George Wuerch, Mayor of the Municipality of 
Anchorage. I am here this morning to testify in support of 
several changes in Federal law that impact public works and to 
champion two specific projects that I believe will greatly 
benefit the majority of Alaska State residents.
    I also want to acknowledge from the outset the tremendous 
impact that TEA-21 and its successor legislation has had and 
will have on this State and on this Nation.
    There is one particular Federal Act with which we wrestle 
and that is the National Environmental Policy Act or NEPA which 
has had grave consequences for many of our local public works 
projects. Because of Alaska's unique geography, practically 
everything we undertake requires us to navigate this cumbersome 
and costly process.
    The Act is not the problem so much as its implementation. 
It takes far too long, it is expensive to comply and it invites 
litigation by organized, well funded environmental groups and 
it is inconsistently implemented by many agencies of the 
Federal Government.
    I am sure the committee has heard these complaints aired 
before, but from our standpoint, what's really missing is 
recognition of the legitimate role for local government in the 
decisionmaking process. NEPA was designed to protect the 
integrity of the environment, but it has morphed into a 
regulatory strait jacket which supplants the economic needs of 
the community with agency preferences for environmental 
preservation.
    Let me very specific on this issue. The problem lies in the 
application of NEPA to local decisions to expand or improve 
facilities that already exist such as changing highway 
intersections and adding traffic lanes to existing roads. In 
Anchorage where you have only one road in and one road out, 
when you have to go through a NEPA process to add a traffic 
lane, that is absurd.
    We are stewards of our own community and Congress ought to 
recognize that by vesting communities with sufficient authority 
and latitude to undertake certain types of projects of 
transportation we can do it in a more efficient manner.
    Now that I've outlined some of the difficulties we face in 
working with one Federal law, let me move on to a more pleasant 
topic, how the Federal Government can assist us in building the 
infrastructure necessary for this region to grow and prosper.
    A roadless State, such as Alaska, needs to be able to apply 
traditional transportation to some non-traditional uses. 
Specifically, we are requesting that TEA-21 funds be allocated 
for expenditure on marine component infrastructure. I am not 
talking about funding for one-time projects but rather we seek 
a recurring revenue stream for marine projects. More than 80 
percent of the goods that flow into the entire State of Alaska 
pass over the docks of the Port of Anchorage.
    Our municipality is currently pursuing a major 
redevelopment program at the Port so that it can adequately 
serve our community as well as the rest of the State for the 
next half century. You'll hear more about this project from the 
Port, but I wanted to touch on the need for programmed Federal 
assistance on an ongoing basis, just like most MPOs receive for 
roads. Our waterside facilities are critical to this community, 
the State of Alaska and to the Federal Government.
    I would also like to reinforce the critical need for a road 
connection across Knik Arm to the Matanuska-Susitna Borough. 
Anchorage is a city hemmed in by geography and Federal land 
ownership. While we continue to build our economy and city, we 
are painfully aware of the diminishing amount of land available 
for development in the Anchorage Bowl.
    For example, Anchorage has less than 7,000 acres of 
potential industrial land remaining within the entire 
municipality. By comparison, the Mat-su Borough has hundreds of 
thousands of undeveloped acreage just a short mile across the 
Knik Arm. Our two economies are already linked because many of 
that borough citizens are part of our workforce in Anchorage 
but in order for the Mat-Su Borough to take advantage of our 
existing infrastructure for its own economic development, it 
needs this road/rail connection as much as we do.
    As you are aware, Metropolitan Planning Organizations are 
chartered by the Federal Government to make transportation 
planning decisions within their geographic boundaries. Our MPO 
is known as Anchorage Metropolitan Area Transportation 
Solutions. It would be extremely valuable to our planning 
process to be able to take into account the transportation 
needs of local governments adjacent to our own.
    In our case, that would be the Matanuska Borough and the 
Kenai Peninsula Borough to the south. Unfortunately, neither of 
our sister municipalities qualify for MPO status due to 
population density and are not granted the same level of self 
determination that we are. We need, therefore, Federal 
recognition to assemble and seek funding for regional priority 
projects in conjunction with our next door neighbors.
    We also believe that the funded allocation to MPOs should 
be directly transferred from the Federal Government. Passing 
the money to State agencies is simply inconsistent with the 
idea of local control in the planning and implementation of 
transportation solutions.
    In closing I want to say I certainly appreciate the 
opportunity to address the committee and share some of our 
ideas on transportation issues that affect not only Anchorage 
but the entire State. I also want to express my appreciation 
for the committee's work in Alaska.
    If there are any questions, I'd be happy to respond.
    Senator Murkowski. Thank you, Mr. Mayor. I really 
appreciate your being here this morning.
    You mentioned NEPA and the difficulties inherent with that 
regulatory process and the inflexibility with the regulation. I 
admit it is a tough one. You point out specific examples that 
are just not reasonable, not necessary, how can you get around 
it. Do you have any suggestions, any specific language you 
might recommend that we take back that would specifically help 
you?
    Mayor Wuerch. I think the fix here is to put into the 
Transportation Reauthorization Act a definitional condition 
that if there is an existing road or intersection where it's 
clear that is really the preferred and only alternative that 
going through the NEPA process is an unnecessary step.
    When NEPA was originally passed, and I was in the 
permitting business in those early days with a gas pipeline 
company, I appreciated the impact on the Nation. It forced us 
to look at committing natural resources and protecting the 
environment but when we have an existing two, four, six lane 
highway and we want to add an extra lane, a turn lane or a high 
traffic lane, or where we have a road alongside the airfield 
within a hundred yards and want to add a cuplet instead of 
continuing to expand the existing corridor, we shouldn't have 
to go through the NEPA process.
    That is the biggest issue. Putting a definition in there 
that clearly limits NEPA to where commitments were made in some 
cases generations ago to a transportation corridor and to 
continue to rehash that environmental assessment process is a 
waste of everybody's time and a huge cost and only leads to 
lawsuits.
    Senator Murkowski. What about the MPOs? You mentioned the 
recognition and it would be very beneficial to have some kind 
of Federal recognition for these regional priority projects 
with your adjacent neighbors. Any suggested language for that?
    Mayor Wuerch. I think this is the kind of permissive 
statute that could be included where if an MPO in conjunction 
with their neighbors who are not MPOs want to jointly propose a 
regional project, that funding stream could come through the 
MPO. Right now the funding forks and it gets a little 
complicated but permissive legislation is always preferable 
when it comes to local implementation because it doesn't force 
one answer on the country but lets those of us who can benefit 
from this kind of option proceed more aggressively with 
centralized funding and pursuit of Federal dollars.
    Senator Murkowski. I appreciate your comments about the 
recurrent funding streams for the marine component. In talking 
with colleagues outside, we talk about the lack of uniformity 
when we define rural, we tell people we have a marine highway 
system and that's exactly what it is. This is our highway 
system. It's not something that there is any degree of 
recognition and appreciation of what it is we do. I appreciate 
your putting those comments on the record this morning.
    Thank you for your time.
    Mayor Wuerch. Thank you, Senator.
    Senator Murkowski. Now let's go to the Honorable Rhonda 
Boyles, Mayor of the Fairbanks North Star Borough.

 STATEMENT OF HON. RHONDA BOYLES, MAYOR, FAIRBANKS NORTH STAR 
                            BOROUGH

    Mayor Boyles. Good morning, Senator. Thank you for coming 
here.
    Although I'm relatively new in the political arena, I don't 
remember a subcommittee coming to the State of Alaska for a 
hearing that I have been invited to. Thank you.
    My name is Rhonda Boyles. I am proud Mayor of the Fairbanks 
North Star Borough. I appreciate the opportunity to testify 
before this committee regarding the issue of importance to 
Alaska and more specifically to the interior of Alaska related 
to the reauthorization of TEA-21.
    With approximately 84,000 residents, the Borough is the 
second largest population area in the State of Alaska and 
covers 7,400 square miles, including two cities, Fairbanks and 
North Pole and numerous smaller entities.
    Landownership in the Fairbanks North Star Borough includes 
4.7 million acres and over 51 percent belonging to the Federal 
Government or 2.4 million acres. The State has 35 percent, the 
University of Alaska has 2 percent, the Borough has 3 percent, 
the Corporation 1 percent, and privately held is 9 percent. It 
is obvious to me that the Federal Government has the largest 
interest and therefore I believe a larger obligation for 
infrastructure development in the interior of Alaska.
    As many have said before me, Alaska is a young State, 
diversified in population, geography, culture and demographics. 
It is undeveloped and compares to a Third World country in many 
area when we discuss infrastructure. There is absolutely no way 
that a sparsely populated State can afford to build the 
transportation and utility networks needed to develop our 
national assets for the benefit of the entire United States. We 
need and our future residents deserve an intermodal approach to 
facilitate economic development and quality of life that many 
other Americans simply take for granted.
    Alaska's resources are a critical part of the North 
American energy market and specifically a major part of 
domestic production. We pass 35 trillion cubic feet of known 
natural gas reserves and upwards of 155 trillion cubic feet 
resource potential. Alaska Gas has provided secure supply of 
reliable natural gas to the United States and public 
infrastructure upgrades are needed in order to continue 
developing our abundant and demanded resources.
    The State of Alaska, as our Lieutenant Governor noted, is 
equal to 20 percent of the area of the entire United States. It 
is geographically located to provide the Nation with a 
strategic defense asset. Presently, at the border of the 
Fairbanks North Star Borough, the Department of Defense is 
building a defense system. This critical project is located on 
the Richardson Highway. This highway was built, happy to say, 
Lisa, before you and I were born, in 1943. It has had a series 
of interesting patches over the last 60 years but it is still 
two lanes wide and very narrow, not to mention the inferior 
quality with permafrost and earthquake damage.
    The upgrade of this highway is critical to defense, mining, 
shallow gas leasing and the development of the railroad as well 
as our No. 1 industry which is tourism.
    The infrastructure projects mentioned here today as well as 
the Dalton Highway, Richardson Highway, Alaska Highway and 
Haines Highway are important projects needed to provide public 
safety and convenience and to promote future development of 
Alaska's resources. Improved transportation infrastructure 
which coordinates airports, roads, ports, bridges, rail and 
utilities will bring needed benefits to the State of Alaska, 
its economy and its residents while benefiting the Nation as a 
whole financially and economically.
    Specific areas of concern to the interior are we have 
thousands of miles of roads built by residents who tax 
themselves in the form of service areas. These utilitarian 
roads are inferior and unsafe and have not been upgraded for 
many years. This year we have requested support to bring those 
areas into local compliance.
    I thank my counterpart Mayor Wuerch for mentioning NEPA. 
Alaska's unique climate and land conditions make conforming to 
burdensome rules and regulations cost prohibitive. The wetlands 
issues are a major concern for the development projects and 
often issuing the necessary permit holds up the project for 
several very short construction seasons. Less restrictive 
administrative requirements or less wetland designation would 
decrease project costs and certainly improve productivity.
    The entire State has a challenge under the Clean Air Act 
amendments of 1990 and was designated as a nonattainment area 
for carbon monoxide due to its unique climate and inversion. 
The continuation and needed flexibility of the Seamack Grant 
Program is critical.
    Again, thank you, Senator, for being here and thank you for 
providing me with the opportunity to represent my constituents 
and their needs.
    Senator Murkowski. Thank you, Mayor Boyles. I appreciate 
your being here this morning.
    I appreciate the comment you made a couple different times 
in your testimony about the recognition of tying the utilities 
in. As has been pointed out repeatedly in the testimony this 
morning, we lack a lot of basic things and we are hoping in 
terms of the transportation infrastructure, we will be able to 
move forward on them, but we also have an opportunity in that 
because we are doing things in many areas for the first time, 
we have an opportunity to tie some of this together. You 
mentioned it in your quick overview of the intermodal project 
up north, an opportunity to have a transportation corridor that 
has with it utilities that are tied in.
    Because we are starting from the ground up in many places, 
we can have some enhanced efficiency, if you will, but we have 
to be forward thinking about it and we have to work together. 
We can't be doing the road and doing the rail and then 
utilities come in separately. We need to be working together in 
concert to get these efficiencies. We should view that as an 
opportunity and I appreciate your bringing that up in your 
comments.
    With that, thank you for joining us this morning. I 
appreciate hearing the views of the north.
    Let's next bring on as the balance of panel three, the 
Honorable Tim Anderson, Mayor, Matanuska-Susitna Borough as 
well as Cheryl Coppe, Executive Administrator for Development, 
Port of Anchorage, Municipality of Anchorage.
    Good morning. Mayor Anderson, it is a privilege to be 
within the Matanuska-Susitna Borough this morning. I will note 
for the record that when we were determining where we were 
going to have this field hearing this morning, it seemed to 
make good sense to be here in the part of the State that is 
growing probably the fastest, the most rapidly and as we look 
outside, probably has some of the greatest transportation needs 
of the area.
    We are pleased to be here in your part of the State this 
morning. With that, if you would like to proceed with your 
comments?

   STATEMENT OF HON. TIM ANDERSON, MAYOR, MATANUSKA-SUSITNA 
                            BOROUGH

    Mayor Anderson. Thank you, Madam Chair.
    The comments you made are very true. We are kind of the 
central region of the State and we have a very fast growing 
population, the fastest in the State.
    For the record, my name is Tim Anderson. I am the Mayor of 
the Matanuska Borough.
    Before I begin, I would like to welcome you on behalf of 
the residents of the Matanuska-Susitna Borough to our borough 
and welcome your staff too. I have met them all now and am 
looking forward to interacting more with them. I do hope you 
have a little time to spend some time in our valley today.
    It is an honor to host the hearing of the U.S. Senate 
Committee on Environment and Public Works in the interest of 
transportation. We are encouraged that you are recognizing the 
unique needs of Alaska by your willingness to hear from our 
residents.
    My testimony today will highlight three transportation 
related issues and part of what I will be talking about you 
have already heard about and I will approach it from a little 
different angle but it is kind of the same thing. It is nice to 
sit here and hear that different governments have the same type 
of feelings about what is going on.
    The topics I would like to cover are the need for direct 
involvement in Alaska's local government in the transportation 
projects in the State, the undeveloped nature of Alaska's 
transportation network and the importance of trails to the 
Alaska way of life.
    We believe there should be a much closer and direct working 
relationship between the Federal transportation agencies and 
the local governments in Alaska. As it stands today, there is 
little if any interaction between these parties. In Alaska, 
local governments must work through the State Department of 
Transportation. While Alaska DOT does an admirable job, the 
needs and messages of the local governments do sometimes become 
lost and sometimes receive a lower priority than that of the 
State and the national road systems.
    We believe that the new transportation bill should provide 
Alaska's local government with the same authority that is 
provided to local governments in other States. There are 
several benefits to doing this. Mayor Wuerch mentioned a few of 
them and the Federal agencies would have a much better 
understanding of what we need here at the local level. There 
would probably be a reduction in the administrative costs the 
State takes with the low costs we would have here for our local 
governments. At the local level, that would allow us to put 
more money directly into the transportation projects.
    Local governments are the closest government to the State's 
residents and therefore we have a better understanding of the 
needs of our community and transportation has a locally elected 
official and 75 percent of the calls I get are transportation 
related.
    Let me describe briefly how it might work if we had the 
Federal Highway Administration providing funding directly to 
local governments. The Federal law should allow a relationship 
to be formed directly between the Federal Highway 
Administration and the local government to allow Federal 
officials to better understand our needs.
    The Federal Highway Administration has already demonstrated 
the desire for a closer working relationship with local 
governments. We have established the Local Road Coordinator's 
Program which consists of a representative from local 
government from each of the 50 States to coordinate and discuss 
local government issues. The Federal Highway Administration has 
also established a local technical assistance program which 
serves local and tribal governments in training technical 
assistants in technology transfer. It is a very successful 
program.
    The Federal highway funds would be awarded directly to 
local governments and would allow local governments to set 
priorities for local projects based on the needs of the 
residents. Local road construction projects could be completed 
sooner by eliminating the State's requirement that forces 
community roads to compete for funds with the national highway 
system. Traffic congestion problems could be alleviated before 
they reach crisis level. That is what most of my issues deal 
with. It is reactive instead of proactive.
    Federal Highway funding would relieve some of the burden 
placed on the local property tax payers by allowing us to 
improve roads that to the Federal level may seem minor but to 
us they are roads of major importance to our community.
    We also feel these same techniques could be used with other 
Federal agencies such as the Federal Transit Administration, 
some of the money we have for projects like our ports goes 
through the FTA.
    The second topic I would like to talk about today is the 
undeveloped and underdeveloped transportation system in Alaska. 
I have lived all over the State of Alaska and am familiar with 
the bush as well as the road system. We have a few highways 
connecting our major population areas and this area we call the 
road system. Most of the State is not connected by roads. We 
have two pipelines of significance, we have electrical and 
natural gas lines mostly found near the State major highway 
systems. We have a host of airports and airstrips with few 
navigational aids and an assortment of docks and harbors, most 
having minimal facilities.
    This lack of a developed transportation system hinders the 
boroughs and the State's economic development in many ways. 
First, it increases the cost of doing business since it takes 
longer for goods to be delivered to the business and to be 
shipped from the businesses. Being a long time Alaskan, we all 
know that you have to wait many times for things to get to us, 
especially rural Alaska.
    Increasing traffic congestion in our urban areas is causing 
increased travel and delivery times or delays in these times, 
increasing the cost of transporting our natural resources, 
making them less competitive in the world markets. We are 
seeing that now with the issue of the coal system where they 
are trying to get the coal competitive. That makes it harder 
because transportation is a large cost of moving that coal.
    The higher transportation cost for natural gas and 
electricity and the underdevelopment also hinders tourism and 
tourism is one of our big developments in this State by not 
having access to numerous State and national parks in our 
historic and cultural destinations, so there is large down side 
to this.
    Basically, an efficient and effective transportation system 
is necessary to a strong economy. Alaska's economy will grow 
with an adequate transportation system.
    I would also like to go on record at this point in saying 
the Matanuska-Susitna Borough fully supports the Knik Arm 
Crossing Project. We see this as a natural extension of the 
transportation system. We are developing a port down there and 
the Knik Arm Crossing will play directly into that with rail. 
We are also developing a corridor that goes from the port to 
Houston area to connect to the railroad and that will also be a 
corridor that includes road and utility and rail. So we are 
looking ahead and planning that now. That is very important to 
economic development in this borough.
    Last, I would like to touch on the importance of trails to 
Alaskans. Trails are an important part of Alaska's 
transportation system. Currently, the transportation projects 
that come down are generally highway related and they have bike 
and pedestrian trails along the major roads. We have some rail 
to trails projects.
    Alaska's trails are different. We use trails in a different 
manner and being Alaskan, I know you are aware of that. Trails 
are not considered a mere enhancement but are actually another 
level of road, another way of commuting from one place to 
another.
    As you are aware, many of our residents use trails, 
especially in the rural areas to access hunting areas or 
landfills, the other communities in the area, to go shopping, 
to get their groceries. You get on a snow machine or a four 
wheeler instead of getting in your vehicle. Trails also provide 
a more cost effective of linking communities since the cost of 
construction and maintenance is much less than that needed for 
roads.
    I would also like to add that I think a good trail system 
could and should become a public safety issue also. We have a 
lot of people in the State that get lost each year and a good 
trail system would prevent that. I have done a lot of trail 
marking in my day for dog sled races and I know the trail is 
very important to someone who doesn't know an area. They have 
to follow the markers. That next marker is very reassuring to 
know it's there, that you are still on the trail. Many of our 
rural residents rely on snow machines and four wheelers as a 
primary method of travel and trails are a much more appropriate 
infrastructure for these areas.
    In conclusion, I would ask that the reauthorization of TEA-
21 and other Federal transportation legislation allow local 
governments more directly with the Federal agencies. I think 
that is important.
    As I mentioned, I would like to see more recognition for 
trail systems.
    We certainly request that TEA-21 continue to recognize the 
unique transportation system for the State of Alaska.
    Thank you again, Madam Chair, for the opportunity to 
testify today. We are glad you will be taking this back to your 
committee. We also are extremely happy that you selected 
Matanuska-Susitna Borough as your location for this important 
hearing.
    Senator Murkowski. Thank you. It is nice to be here this 
morning.
    I will take this opportunity right now to say that on 
Friday I did introduce legislation that would address the snow 
machine trail issue you brought up. As you point out, in so 
many of our areas, snow machine as a means of transportation is 
primary to some communities. We don't really do anything within 
our existing transportation system to address that. So the 
legislation I have introduced would work with the Secretary of 
Transportation so that we identify the extent of the fuel tax 
attributable to snow machines for use in that State. Then those 
funds would be used within the State for maintenance, marking, 
construction of snow machine trails.
    In addition, there would be a specific amount that is 
allotted toward snow machine education safety which, as we 
know, things happen in this State and given the environment and 
the climate, when things happen, we need to be prepared for 
them. So it is an initiative in our State as well as so many 
other northern States where snow machining is not only a 
recreational sport but is a primary means of transportation for 
so many.
    I am hopeful that we will make good progress with this 
because it is something whose time has definitely come in our 
State, so we will be pushing that. I appreciate the opportunity 
to talk about it this morning.
    I do appreciate your comments about the Knik Arm Crossing 
and your support for it. You made the comment that typically we 
are in a reactive mode as opposed to a proactive mode. I would 
like to think, particularly with the Knik Arm Crossing, that 
the community on this side, and I live in Anchorage so I am 
doing it from across the water this way but that it will be a 
concerted, cooperative effort as we address what happens when 
we get that bridge from one side to the other. Anchorage is 
already developed and we have a lot of room to grow over here 
but if we can coordinate it and be proactive about how we 
develop it rather than reactive and just hope that it works.
    The point was well made by the Alaska Railroad when Eileen 
Reilly spoke earlier, the fact that once we get to the other 
side, we have to know how the pieces are going to fit here. I 
hope that is part of a long range plan for the borough.
    Mayor Anderson. It most definitely is. We established what 
we call an RTO which are regional transportation organizations 
with members of the Municipality of Anchorage and the 
Matanuska-Susitna Borough. We have been working together now 
for over 2 years and recognize that as our top project. That is 
exactly what we are doing, planning and putting together all 
these details in a proactive manner to make it happen so it 
works for both of us. So you are seeing very much a joint 
effort between us with the regional project.
    Senator Murkowski. Thank you for your comments this 
morning.
    Let's next go to Cheryl Coppe, Executive Administrator for 
Development, Port of Anchorage, Municipality of Anchorage.

    STATEMENT OF CHERYL COPPE, EXECUTIVE ADMINISTRATOR FOR 
   DEVELOPMENT, PORT OF ANCHORAGE, MUNICIPALITY OF ANCHORAGE

    Ms. Coppe. Good morning, Senator Murkowski. On behalf of 
Governor Sheffield, of the Port of Anchorage, and myself and I 
am also here representing Mayor Wuerch, so I must say we all do 
terribly appreciate the tremendous level of interest you have 
shown in such a short period of time. It is pleasing and it has 
been very beneficial to us.
    Madam Chairperson and members of the committee, thank you 
for this opportunity to present testimony on behalf of the 
Mayor of the Municipality of Anchorage, George Wuerch and the 
Director of the Port of Anchorage, former Governor William 
Sheffield.
    I will discuss the regional and national importance of the 
Port of Anchorage and the need for Federal funding to support 
the rehabilitation and expansion of the Port through its Port 
Intermodal Expansion Project.
    The Port of Anchorage is a freight and passenger marine 
transportation facility of approximately 130 acres. It is 
Alaska's regional port, a department of the Municipality of 
Anchorage, but self-supporting. The port receives no tax 
support from the municipality and, in fact, pays an annual 
assessment in lieu of taxes to the municipality from its net 
profits.
    The port is the keystone and hub of a massive multimodal 
transportation system that helps Alaskan businesses remain 
competitive with their counterparts in the lower 48. It is 
estimated that the port contributes approximately $725 million 
annually to the State's economy. For this reason, the port is 
considered a major economic driver, serving not only the 
Municipality of Anchorage.
    Eighty percent of the State's geographical area receives 
cargo from the port that is transshipped by truck, train, plane 
and barge to final destinations throughout the State. The 
population of the same area receives more than 90 percent of 
its consumer goods through the Port of Anchorage. Additionally, 
the Port of Anchorage weighs significantly on the economic 
security of the Pacific Northwest. The flow of cargo to and 
from the port wields potent indirect economic impacts that 
affect the Puget Sound area of Washington because Port of 
Anchorage operations drive more than one-third of all the cargo 
operations at the Port of Tacoma.
    Not large by international standards, the Port is 
recognized as one of the most efficiently operated container 
ports on the West Coast and consistently ranks in the top 25 
container ports in North America for the volume of cargo moved 
through its facilities. Four million tons of cargo move 
annually across the docks and through its marine terminals.
    The port's petroleum terminals serve the communities of 
South Central and Western Alaska. Jet fuel used by Elmendorf 
Air Force Base and Ted Stevens Anchorage International Airport 
also moves through the port's petroleum terminals and is 
transported by pipeline to those facilities.
    Local military planners, recognize the Port of Anchorage as 
a ``critical node'' and a ``strategic port'' under certain 
Department of Defense contingency planning scenarios. Because 
of its strategic value, location and proximity to neighboring 
military commands at Elmendorf Air Force Base and Fort 
Richardson, the Port of Anchorage is a critical component for 
certain DOD strategic activities concerning mobilization 
planning.
    For these reasons, the Port of Anchorage entered into a 
Federal Port Controller service agreement on April 27, 1987 
which is still in effect. Additionally, the port maintains 
close professional working relationships with the Military 
Traffic Management Command, Military Sealift Command, and all 
local and statewide military logistics and transportation 
officials.
    During March 2003, the Port of Anchorage received letters 
from Lieutenant General Carrol Chandler, Commander of the 
Alaskan Command, and Major General John Brown of the United 
States Army, Alaska. These letters endorsed the Port Intermodal 
Expansion Project. In particular, the Road and Rail, Barge 
Terminal and Harbor Deepening phases of the project will 
support the rapid deployment of the Army's new Stryker Brigade 
Combat Team and enhance the Department of Defense's ability to 
more rapidly process troops and equipment for any worldwide 
deployment. These near term phases of the port's expansion 
plans are especially important to the Stryker Brigade because 
it so operational capability in Alaska is scheduled for May 
2005.
    This month, U.S. Army Alaska, with the support of the 
Alaskan Command, began the process for designating the Port of 
Anchorage as a national strategic port. There are 13 strategic 
ports currently in the Nation. The Port of Anchorage would 
become the 14th.
    Stryker Brigade combat teams are cornerstone assets in the 
new Department of Defense paradigm of rapid readiness and 
deployment now considered critical to the Nation's security. 
Therefore, port expansion planning will include designs for the 
necessary security, operation and maintenance infrastructure 
that must support this critical responsibility.
    The port is preparing for the near and long term future 
needs such as the ones I just described of both the State and 
the Nation by initiating extensive rehabilitation and new 
construction in multiple phases over an expedited schedule from 
2003 through 2008 under its Port Intermodal Expansion Project. 
The Maritime Administration recently became the Federal lead 
agency for this project through special legislation passed in 
the 2003 Consolidated Appropriations Resolution.
    The port states with pride that the port expansion 
development and administrative concepts it and MARAD will 
employ are unique and audacious, especially when compared to 
the customary U.S. Department of Transportation project 
delivery process. This is the first major marine transportation 
infrastructure project ever sponsored and supported by MARAD 
and the U.S. Department of Transportation.
    The Maritime Administration and the port sought to make 
this arrangement an ``innovative partnership'' that integrates 
modes of transportation, water, road and rail, into a cohesive 
system, exemplifying the type of intermodal, public, private, 
commercial-military initiative that will define the U.S. Marine 
Transportation System in the 21st century.
    Also, in consideration of the collectively unique 
combination of characteristics the Port Intermodal Expansion 
Project possesses, MARAD and the U.S. Department of 
Transportation plan to nominate the port expansion as a high 
priority, major transportation infrastructure demonstration 
project of this Administration.
    The phases of this project include but are not limited to: 
road and rail access development that will provide direct 
loading of containers from vessels onto rail cars; barge 
terminal facility and storage areas that will accommodate 
military high speed sealift capability, movement of heavy 
equipment and oil field module construction; a 1,200 foot 
multipurpose dock designed to handle a variety of vessels 
including cruise ships, and the dock also features new 
petroleum piers designed for deeper draft, double-hull tankers 
that will call at the port; rehabilitation and widening of the 
existing dock to meet increasing weight requirements and 
accommodate three new 100-foot gauge container cranes; 
reconfiguration of all cargo transit, storage yards and 
terminals and deepening of the authorized dredge depth of the 
Anchorage Harbor and Navigation Channel from--35 feet at low 
tide to--45 feet. This project phase will occur in partnership 
with the U.S. Army Corps of Engineers.
    The total cost for all phases of the Port Intermodal 
Expansion Project is estimated to be approximately $227 
million. Proposed project shares are 38 percent nonFederal, 27 
percent appropriations earmarks and 35 percent from TEA-21 
reauthorization. The Port currently has $55 million available 
as its contribution toward the anticipated nonFederal portion 
of port expansion costs.
    In conclusion, implementation of the Port Intermodal 
Expansion Project will provide the major transportation 
infrastructure necessary to move Alaska's regional port, the 
Port of Anchorage, into the future, meeting commercial and 
military needs of the State, the region and the Nation. This 
project can also become the benchmark for Marine transportation 
system development throughout the Nation.
    However, the ultimate success of this project relies on the 
support of the members of this committee, their colleagues in 
both houses of Congress and their collective commitment to 
provide the Federal financial resources necessary to make it a 
reality.
    Madam Chairperson, this completes my statement. I again 
thank you for the opportunity to testify today on behalf of the 
Municipality and the Port of Anchorage. I will be pleased to 
answer any questions you may have.
    Senator Murkowski. Thank you. I appreciate your testimony 
and it is exciting to hear about the opportunities that are 
presented to us with the Port of Anchorage. I am very familiar 
having represented this areas in my 4 years in the legislature 
as well as being a native. The good Mayor knows that I am 
always watching what is going on down below and when 
appropriate, I give my two cents worth. It is good to see that 
it is being recognized for its strategic location and all that 
we are able to accomplish within the port.
    The one concern that I have always had is the geographic 
confines of the port. We are just tucked away in there between 
Elmendorf on one side, the water on the other in kind of a 
bottleneck that we have often talked about.
    I am pleased that the port project is underway and it looks 
like Governor Sheffield will be able to accomplish what he is 
seeking with this. I have always encouraged a good, cordial and 
friendly relationship between the Port of Anchorage and the 
Matsu port because in my mind that is where I see the future. 
There is a recognition we can only go so far given the physical 
limitations of the Port of Anchorage. I want to encourage on 
the record the continued working relationship because as 
Anchorage grows, as the Port of Anchorage itself grows and we 
agree to take on some of these other initiatives there is a 
recognition that at some point we run out of room. The next 
natural place to go is right across the water to a very 
convenient spot where I understand there is great cooperation.
    So take that back as my only concern to the continuing 
communication and good working relationship.
    Thank you for your testimony this morning.
    Let us then move to the last panel for the morning and this 
consists of Mr. Carvel Zimin, Jr., President, Bristol Bay 
Borough Assembly; and then we will pick up our two mayors from 
Palmer and Wasilla once Mr. Zimin has concluded his testimony.
    Good morning. Welcome to the committee. Thank you for 
joining us all the way from Bristol Bay.

STATEMENT OF CARVEL ZIMIN, JR., PRESIDENT, BRISTOL BAY BOROUGH 
                            ASSEMBLY

    Mr. Zimin. Thank you, Senator Murkowski. Thank you for the 
opportunity. I am in awe of all the company here.
    My name is Carvel Zimin, Jr., an Alaskan Native born in 
South Naknek, lived there all my life. I serve as President of 
the Bristol Bay Borough Assembly. We have five assemblymen, a 
mayor and a manager. We were the first borough municipality to 
form in the State of Alaska in 1962.
    My focus today will be on the Bristol Bay Borough 
Resolution 2002-16, priorities one and six.
    First, the Naknek River Bridge Project, the borough 
assembly agrees that the single most important thing that could 
happen to enhance economic growth of the borough is a bridge 
across the Naknek River, thus its No. 1 ranking.
    I personally hand delivered our request to our delegation 
in Washington, DC. as you see before you in a letter to the 
Honorable Don Young dated March 1, 2003, and a transportation 
project evaluation criteria form.
    We believe this project will bring real benefits to both 
the region and the State as a part of the State of Alaska's 
Southwest Alaska Transportation Plan. Residents of the region 
are in strong support of the project. Bristol Bay has some of 
the world's largest returns of wild, natural salmon, including 
the much prized Sockeye or Red Salmon. Commercial harvesting 
for Sockeye has occurred since the 1890's. There are still 
numerous large fish processing facilities that will benefit 
from completion of a bridge. Also residents of Bristol Bay 
would benefit greatly.
    Currently, school children from South Naknek, sixth through 
twelfth grades are flown daily to and from South Naknek to 
attend high school in Nakanek. Employment opportunities for the 
Bristol Bay residents would improve along with health care 
access and the availability of an all weather airport by South 
Naknek residents. Public works, public safety, fire and EMS, 
community development and support services, solid waste, 
schools, ports, libraries, and quality of life things would 
benefit from combining services at a cost savings to the 
borough, region, and industry.
    We would like to see exploration for shallow natural gas 
development and transfer to our local utility for cheap 
electrical generation.
    Finally, on No. 6, improvements to our existing borough 
dock would help tremendously as we are spending close to $200 
million per year in upkeep to our main port of entry for 
freight. Normal life span of a concrete and steel piling dock 
is 20 to 25 years. We are experiencing normal wear at 22 years.
    We average 21st in the ranking for pounds and dollars of 
all U.S. ports. This is only canned fish and does not include 
containers of frozen salmon shipped to Dutch Harbor, Alaska.
    In conclusion, thank you very much.
    Senator Murkowski. Thank you, Mr. Zimin. I appreciate your 
testimony here this afternoon and this morning. I think many 
people would be shocked to know that school kids are 
transported via air, and perhaps might think what an 
extravagance, but for your constituents, the people in your 
community, it is not an extravagance, it is a necessity.
    Mr. Zimin. It is a necessity. I was, like I said, born and 
raised into the community and I've done the same airplane trip 
every day all the way through high school. We almost think it 
is normal to do that, that that's what we have.
    I have a conclusion, I guess. In giving an analogy for 
transportation projects in the U.S., if you want to 
respectfully think about the continental U.S. as a dart board 
and you have two darts and you threw the two darts at the dart 
board, you could probably drive between the two darts, whereas 
in Alaska you've got to be a pretty good shot to be able to do 
that.
    Senator Murkowski. I couldn't do it, I can guarantee you 
that. That's a good analogy though.
    We've had a little bit of discussion this morning about 
roads connecting villages within a region. Would you care to 
comment on that within the Bristol Bay area?
    Mr. Zimin. I think roads within the regions are really 
important. It's really what ties communities together. We know 
that at some point every road will be connected, and we really 
do need the resources, but we would like to concentrate on 
things that could actually benefit the community immediately, 
and with the bridge, hopefully, they can also do shallow gas 
exploration and possibly resource development to bring to our 
community the three communities--connecting the three 
communities with cheap electrical generation for the local 
utility.
    Senator Murkowski. OK. We appreciate your comments this 
morning and your joining us. Thank you.
    Mr. Zimin. Thank you.
    Senator Murkowski. Let's now bring to the table our last 
two this morning, not last for any reason other than as local 
mayors of the city of Palmer and the city of Wasilla. We knew 
you were going to be here for a while and appreciate your 
patience this morning, The Honorable Jim Cooper, Mayor of the 
city of Palmer, and The Honorable Dianne Keller, Mayor of the 
city of Wasilla. Welcome and good morning. Thank you for having 
us in your community.
    Mayor Cooper?

  STATEMENT OF HON. JIM COOPER, MAYOR, CITY OF PALMER, ALASKA

    Mayor Cooper. Thank you, Madam Chair, for providing this 
opportunity for testimony on transportation infrastructure 
needs in Alaska. On behalf of the city of Palmer, I welcome you 
to our community and hope this hearing and your time in our 
community is fruitful and informative. It is nice to see you 
again.
    The city of Palmer is not a large community, but it is 
representative of so many communities in the United States that 
are experiencing growth and trying to meet the challenges of 
building and improving local transportation infrastructure. 
Palmer has the highest population density of mid-sized Alaska 
cities by a factor of two. Palmer is experiencing an annual 
growth rate of 7 percent, and the capacity of our 
transportation infrastructure is not keeping up with that 
growth.
    Palmer is served by the Glenn Highway from the north and 
south, the Old Glenn Highway from the east, and the Palmer-
Wasilla Highway from the west. The Glenn Highway, a Federal 
interstate highway, passes directly through Palmer. All of 
these road,s including local Palmer city streets, have 
experienced tremendous increases in usage in recent years, and 
all of these roads are in need of capacity and safety 
improvements.
    Traffic on the Glenn Highway south of Palmer has increased 
100 percent in 10 years and has reached levels that suggest it 
be improved from its present two lanes to four lanes. Traffic 
on the Palmer-Wasilla Highway has increased 50 percent in 10 
years, creating the need for either a major capacity 
improvement or construction of another parallel route.
    The need for these projects has been identified for some 
time. These projects and many others are listed in the State of 
Alaska's statewide Transportation Improvement Program, STIP; 
yet years pass, traffic and congestion increase, and these 
projects are bumped back again and again in the STIP schedule, 
often due to an overall level of funding that is not sufficient 
to address transportation needs on a timely basis. We believe 
that the current level of Federal highway funding is not 
adequate to meet the growing--and increasingly deferred--
transportation needs of our area.
    As we plan for improvements to the Glenn Highway through 
Palmer, a Federal interstate highway, there is a compelling 
need to design those improvements so that they enhance, rather 
than divide, our community. Also, the Glenn Highway has 
recently been designated as a National Scenic Byway. Because of 
this designation and to recognize the needs of our community, 
the city of Palmer, in cooperation with the State of Alaska, 
hopes to develop an urban boulevard design for the Glenn 
Highway through Palmer. This approach will combine pedestrian 
facilities and landscape improvements with roadway capacity 
improvements so this project fits into our community.
    In regards to local roads, Palmer has had several local 
projects listed in the STIP. The city has worked with the 
Alaska Department of Transportation and Public Facilities to 
construct some of these projects. Our success in some of these 
projects has been due to a high level of local participation. 
The city believes some local projects can be done on a more 
timely, cost-effective and efficient basis if project funds are 
transferred to the local municipality through a memorandum of 
agreement.
    There are other important transportation elements that 
deserve continued attention and funding. The city of Palmer is 
involved in a project funded through a Federal Highway 
Administration Transportation and Community and System 
Preservation--TCSP--program grant to improve the Alaska 
Railroad right-of-way through Palmer. This urban revitalization 
project, made possible by a partnership of State and Federal 
agencies and the Alaska Railroad, will construct pedestrian and 
bicycle pathways, parking areas, and other improvements to 
enhance alternate means of local transportation in our 
community. This is also a project which will be an important 
part of an area-wide system of trails connecting Sutton to the 
north, the Butte and Knik River areas to the east, and Wasilla 
and Big Lake to the west. To the south, the project will 
connect to a new park-and-ride facility soon to be constructed 
at the Alaska State Fair in Palmer, using Federal Transit 
Administration funds.
    In summary, we stress the need for continued and increased 
levels of Federal funding for transportation improvements in 
Alaska, and for the continuation of programs that allow close 
coordination of transportation improvement planning with the 
needs of local communities.
    Thank you for the opportunity to testify before you today, 
and thank you again for convening this hearing in our 
community.
    Senator Murkowski. Thank you. It is a privilege to be here.
    You point out that the transportation infrastructure is 
simply not keeping up with the growth of this area. Again, we 
have been reactive rather than proactive. Do you have any 
suggestions on how to get ahead of the curve?
    Mr. Cooper. Well, that's a great question. You know, we 
have some plans on the drawing board. We do need another north-
south connection that will allow the folks that live halfway 
between Palmer and Wasilla to access the Glenn Highway. We also 
need another east-west corridor, which we refer to as the 
Boulevard East extension, which will reduce the traffic 
congestion on the Palmer-Wasilla Highway.
    I think that those two are probably critical in the very 
near future to help resolve some of these problems.
    Senator Murkowski. OK. Well, I appreciate your coming.
    Let's now go to the Mayor of Wasilla, the Honorable Dianne 
Keller. Welcome and good morning.

  STATEMENT OF HON. DIANNE M. KELLER, MAYOR, CITY OF WASILLA, 
                             ALASKA

    Mayor Keller. Thank you, and welcome home.
    Madame Chairman, my name is Dianne Keller. I am the Mayor 
of the city of Wasilla, one of the fastest growing cities in 
the fastest growing region of Alaska. The 2000 census shows 
that Wasilla has grown 35.7 percent since 1990, and 15 percent 
last year. This is more than double the statewide Alaska growth 
rate of 14 percent during the same decade. That growth rate is 
predicted to continue at least 20 years into the future. With 
that growth comes an unprecedented demand for basic services, 
including roads and water and sewer, the provision and funding 
for which this committee has direct oversight.
    This unprecedented growth has also led to a major commuting 
phenomenon from Wasilla to Anchorage, where many of the 
residents of Wasilla and the surrounding borough work. 
Approximately 38 percent of the borough workforce commutes, and 
this affects Wasilla greatly. Much of this workforce commutes 
directly through Wasilla twice a day. The growth and 
accompanying congestion is situated in Wasilla and the core 
area, as well as north of Wasilla. These commuters have no 
choice but to commute directly through our city due to the 
current infrastructure that is in place today.
    Madame Chairman, my message to you is simple. We need help 
and we need it quickly. I know that the State has its 
responsibilities under the Highway Trust Fund formula, but it 
is clear that the State has its hands full. Wasilla is ground 
zero for traffic congestion and I would request that the 
committee help the State and local governments to solve this 
problem. Here is how I urge this committee to provide the 
necessary assistance.
    First, fully fund the Highway Trust Fund under the 
reauthorization of the Transportation Equity Act. This includes 
ensuring that 5-year funding will be available for projects in 
our area.
    Second, provide a fair formula for ``small States'' which 
have large needs, even though they may have smaller 
populations.
    Third, fund construction of the Knik Arm Crossing.
    And fourth, provide funding for some local projects which 
will assist cities like Wasilla, Palmer, and Houston. One such 
project is the transportation corridor that will allow traffic 
to travel around Wasilla, with exits into the city of Wasilla. 
The transportation corridor should include road and railroad 
access that will allow all forms of transportation to travel 
through the Wasilla area more safely.
    What does this mean for Wasilla? No population in the State 
has a greater stake in passage of a 5-year Transportation 
Equity Act reauthorization than Wasilla. We can only have some 
hope to deal with our local traffic congestion if this bill 
passes and is passed on time. If the Knik Arm Crossing is 
built, then an even greater congestion problem in and out of 
Wasilla may be avoided. Right now, every car which travels from 
Anchorage to Fairbanks has no alternative except to commute 
directly through Wasilla. This local commuting provides 
unmanageable traffic congestion during the morning and 
afternoon rush hours. The stream of traffic is long and 
dangerous for drivers and pedestrians.
    Additionally, this makes it very hard for merchants to 
develop a well-managed economy because traffic becomes 
gridlocked and people want to avoid these areas. Employment has 
grown 73.6 percent in the area in the last decade. We need your 
assistance to help plan and manage this traffic today and into 
the future.
    Madame Chairman, I have submitted for the record two 
projects which appear to be local projects; however, they will 
assist with the regional transportation needs of the Mat-Su 
Valley. The first, Mack Road Drive construction and 
improvements, will be the principal exit and approach from 
Wasilla to the Knik Arm bridge crossing. This project will also 
provide access to the newest major regional project, the city 
of Wasilla Multi-Use Sports Complex. The city is very proud of 
this project; it is a $14.7 million project that was locally 
bonded. This complex will also be an emergency evacuation 
center for residents of the core area in case of a disaster. We 
have just begun the land clearing for this project, and after 
completion, Mack Road will open up a new access point to this 
project, as well as creating a new access point to the Knik Arm 
bridge crossing. The Mack Road project has been nominated to 
the STIP.
    The other project the city of Wasilla has requested funding 
for is the upgrading of Lucille Street. This project is also a 
major road upgrade which will reduce the amount of traffic on 
the Parks Highway and Main Street in Wasilla. I have discussed 
this project with the Mat-Su Borough and we all agree that we 
need more north-south road corridors for the public to use for 
daily commuting, as well as for evacuation routes in case of 
emergencies like the Miler's Reach fire in 1996. Again, it is 
critical that the committee provide some mechanism for projects 
such as these to be included in the Transportation Equity Act.
    Madame Chairman, I do not want to take too much of this 
committee's time. I know you have had a lot of witnesses. 
However, as a resident of the Mat-Su Valley and as Mayor of 
Wasilla, I want to thank you for taking the time to come to the 
Mat-Su Valley to see our infrastructure needs in person. We 
believe that the future of South Central Alaska is critical to 
the future of our State and where the majority of growth will 
continue in the near and far future.
    Thanks again for holding this hearing and allowing me to 
make written and verbal testimony on the transportation needs 
of the city of Wasilla and the Matanuska-Susitna Borough.
    Senator Murkowski. OK. I appreciate your comments about how 
some of the projects that you named may appear to be local in 
nature, which they are, but the impact that they have on the 
transportation corridor as a whole, which accesses literally, I 
mean, going from the furthest south that you can go, you've got 
to be going through Wasilla. Until we do something with the 
Knik Arm Crossing, there's no way to avoid that, and so we've 
got a bottleneck right in the middle of the State in your 
community. We do need to figure out a way to address that.
    We are kind of in an interesting situation, though, with 
the prospect of the Knik Arm Road and what that may or may not 
bring to your community. There are some who follow the logical 
progression up north to be intersecting or coming into the 
parks highway right about Houston. That's bypassing Wasilla, 
which for probably many of your residents would be a blessing, 
although for some it will be a concern. It will be a 
consideration. I know that the new highway, with the 
reconstruction that's going on out there, there are those that 
have had their businesses literally pushed off to the side of 
the road and may or may not be able to make it. So I hope that 
it's not something that your residents are fearful of in terms 
of being kind of scooted off the main highway system. I think 
that that's probably the direction we're taking with the Knik 
Arm Crossing initially.
    Mayor Keller. I believe that this is an opportunity to add 
depth to our community in that the borough is pretty much laid 
out in a certain form because of the evolution of development 
along the highway, and this is a golden opportunity to add the 
depth to our community that I have been hearing people talk 
about.
    One of the projects, though, that I would like to request 
that is not on the STIP is a project that we have talked about 
with DOT as well as the Alaska Railroad would be a 
transportation corridor that would go around Wasilla to allow 
people that do not want to stop at Wasilla to travel through 
the area in a safer manner without having to go directly into 
our city limits. That would be a wonderful aspect to our 
community, and the business centers of our community also have 
agreed that this would be a good thing because people just 
don't like to stop and shop. That is one of the things that we 
would like to look at and have been talking to the railroad as 
well as DOT to provide that.
    But I look at the Knik Arm Crossing as a wonderful 
opportunity for Amasa Borough, for the city of Wasilla, and for 
the city of Houston.
    I would like to note--I think it was an oversight--that 
Mayor Dell Adams from Houston was not added to our agenda, and 
I do know that he has a written testimony. If you would please 
accept his written testimony, I think he would be very 
appreciative of that.
    Senator Murkowski. We certainly will be doing that. As we 
recognize, there are a lot of people who were not here today to 
testify simply because we couldn't accommodate every community 
within the State, and I think they would have appreciated the 
opportunity to personally give their comments. I thank you for 
coming back to Washington last week and bringing out some of 
the priorities that we've heard here today.
    That does conclude the testimony from our invited 
witnesses. I would remind all of those who are here who think 
that there are others who should present written testimony, you 
are certainly welcome and encouraged to do so. The record will 
be kept open for 2 weeks for additional testimony to come in. 
Mr. Qualters has apparently posted at the front door where you 
are to submit the testimony. I believe the details are there.
    We've heard testimony on a wide variety of transportation 
projects, not just the highways. We've heard about the ports, 
marine, a little bit, a little bit on aviation, a little bit on 
the trail system. And so I would encourage you, as you present 
your proposed additional comments or testimony, not necessarily 
limited to just these issues. If there's something, specific 
projects that you think need to come before the committee, I 
would certainly welcome and encourage that. We in Congress--
certainly the colleagues who will never have an opportunity to 
come up here and really view firsthand Alaska's situation and 
our transportation infrastructure need to have a better 
understanding of the breadth and scope of our transportation 
needs, so the more details that we can present to the committee 
I think the better we will all be.
    I would like to note we have been joined by the Wasilla 
Lake Christian School students. They joined us to watch the 
proceedings. They didn't get to watch the full bit of it, but I 
welcome you and thank you for spending a little bit of your 
school day to come and join us.
    With that, again, I would like to personally thank all of 
you who have come to give your testimony this morning, those 
who have come to listen. What we're talking about right now is 
so vital, is so critical to the economic development of this 
State.
    As I've stated and as was reiterated by many people here 
this morning, we simply can't have economic development in 
Alaska if you don't have adequate transportation systems, 
adequate access, if you don't have affordable energy. Quite 
often we can't get to affordable energy unless we have access 
and unless we have the skilled workers. It is truly the three-
legged stool for development.
    It is important that we get our message out loud and clear 
that first things have to be put first, and that's the 
transportation. So to hear the testimony this morning, to hear 
the areas of need, and to have that presented to the record for 
the committee to take up as we address this in the legislation 
that will be coming forward has been more critical, most 
important, and certainly most welcome.
    I thank all of you and look forward to the opportunity to 
speak more about the individual projects in your respective 
areas.
    With that, we will conclude the hearing. Thank you.
    [Whereupon, at 12 o'clock noon, the committee was 
adjourned, to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:

     Statement of Lieutenant Governor Loren Leman, State of Alaska

    On behalf of Governor Murkowski and I welcome to Alaska! Senator 
Murkowski. Welcome home! Thank you for taking your time to hear about 
Alaska's transportation infrastructure needs.
    In Alaska, the vast distances and rugged terrain mandate using 
multiple linked modes, including marine, air, and land transportation 
systems. Alaska is the largest State in the Union, comprising one-fifth 
of the total area of the contiguous United States, yet is has only 
13,628 miles of roadways, less than the State of Vermont.
    Only a few communities in our State have the variety of travel 
modes common to most communities in the Nation. Nearly 90 percent of 
Alaska's communities depend on aviation for year-round access. These 
non-roaded communities rely entirely on aviation for food, groceries, 
health care supplies, mail and transport to urban Alaska and elsewhere 
in our country.
    We must continue building and upgrading our entire transportation 
infrastructure, including airports, marine highways, harbors, roads and 
railroad to provide services to Alaskans and our visitors. Improvements 
to transportation in Alaska should offer benefits including access to 
resources, work opportunities, lower costs, safety and consolidation of 
health and education services. These improvements are vital to our 
economic growth and security.
    It is difficult to convey to those for whom Alaska is not home what 
it is like to rely on an airplane for a medevac in a remote community. 
My chief of staff has had the experience of waiting . . . and waiting . 
. . while a helicopter transporting a patient receiving CPR flew the 
shoreline for 45 minutes in blowing snow because the pilot could not 
see anything else. If the weather had been a little worse, the 
helicopter could not have made the trip. A road in that region would 
provide additional access between those communities. When the phone 
lines go down because of high winds, that reduces a remote community's 
options for delivery of health care--because not only will the 
community likely be out of reach of advanced medical advice, but the 
planes won't be flying either.
    I was raised in this beautiful State and in my professional life 
before becoming Lieutenant Governor practiced actively as a civil 
engineer. I have traveled extensively throughout Alaska and am quite 
familiar with our transportation needs.
    At its core, our Administration's primary mission is to build a 
robust, growing economy that contributes to our nation's security, food 
and resource needs. We want good job opportunities, so families can 
care for their needs and our young people may stay in Alaska. To do so 
new and improved infrastructure is needed across our State. This 
includes the State acquiring historic transportation rights of way. 
This is something we have been actively pursuing for years.
    Access improvements will bring many benefits to Alaskans, which 
most communities in the 48 contiguous States take for granted. Expanded 
access to and through Alaska's communities, on a regional basis, will 
make a difference in the quality of life of Alaskans by improving 
access to health care and reducing the cost of living (groceries, power 
costs, building supplies). The economies of scale built through access 
will allow government investments in schools, bulk fuel farms, health 
clinics, airports and harbors to serve multiple communities.
    In summary, thank you for your interest in Alaska's transportation 
needs. Governor Murkowski and I look forward to working with you to 
resolve them. Thank you for this opportunity to provide testimony and 
for taking your time to visit Alaska. It is my hope your experiences 
while here will help you understand the challenges Alaskans continue to 
face daily.

                               __________
      Statement of Commissioner Mike Barton, Alaska Department of 
                  Transportation and Public Facilities

    Senator Murkowski, thank you for giving us the opportunity to share 
with you and your committee some of Alaska's transportation needs.
    As Lt. Governor Leman pointed out, due to the size of the State and 
the relative immaturity of our infrastructure, transportation plays a 
more critical role in the lives of Alaskans than in any other State. 
Nowhere else in the United States is the cost of an apple, a trip to 
the doctor, or the ability to access raw materials more directly 
affected by transportation.
    We Alaskans like to tell everyone about how unique our State is. A 
common story that we like to tell those from the other 49 States is 
that if Alaska were cut in half, Texas would be the third largest State 
in the Union. As you can imagine, this geographic scale presents some 
difficult challenges for those of us responsible for building, 
operating, and maintaining our State's transportation systems.
    In addition, geographic diversity is an opportunity for us. Because 
of our diversity, Alaska is, by far, the leader in providing multi-
modal transportation services to our residents. From the Alaska Marine 
Highway System in Southeast Alaska, to the roads and highways of 
Southcentral and Interior Alaska, to the snowmachine trails in Rural 
Alaska, to the ports and harbors of our Coastline, to the many airports 
that connect our State, Alaska's transportation system remains an 
essential element of growth and opportunity.
    To that end, Governor Murkowski has pledged to develop new 
transportation infrastructure while continuing to improve the existing 
infrastructure. The Governor has identified four key projects that we 
recommend for high priority funding. Those projects are: The Gravina 
Island Bridge in Ketchikan, the Juneau Access Project, the Knik Arm 
Crossing in Anchorage, and the Bradfield Canal Road Project in 
Southeast Alaska.
    The Gravina Island Bridge project connects the community of 
Ketchikan with Gravina Island, where the Ketchikan Airport is located. 
This direct link will improve travel times, costs, and convenience, as 
well as remove the need to maintain and operate two ferries. The bridge 
also provides access to new lands that are suitable for residential, 
commercial, and industrial purposes. This project received startup 
funding as a TEA-21 high-priority project.
    The Juneau Access Project will improve surface access to the 
State's capital. A 65-mile road along the Lynn Canal is the State's 
preferred alternative. The EIS for the project is expected to be 
completed in early 2004. The project is an essential link in the new 
regional transportation system. It will improve shipping and travel 
times, while reducing costs to the State and the public.
    The Knik Arm Crossing will connect Anchorage with the Matanuska-
Susitna Valley via a new highway and rail bridge. This project will 
significantly reduce travel times between the State's three main 
population centers Anchorage, Fairbanks, and the Mat-Su Valley and will 
help to spur economic development. The Department is currently 
conducting an engineering feasibility and cost estimate study on this 
project. The department seeks funding to move this project through the 
environmental and permitting phases.
    The Bradfield Canal Road Project would provide road access from 
Southeast Alaska to the Cassiar Highway in British Columbia and on to 
the contiguous 48 States.
    In addition to these four projects, the Governor has also 
established two new programs to develop new roads in rural Alaska. 
These programs develop Community Access Roads and Economic Development 
Roads. These programs will provide new transportation links to and 
between communities and new access for the development of the State's 
vast natural resources. Federal assistance in funding these programs is 
also of national importance since Alaska lands contain vast raw 
materials needed for our economy.
    In addition to high priority projects, Alaska has other needs that 
could be addressed during reauthorization. It is critical that several 
provisions of TEA-21 be retained, including:

Firewalls and Funding Guarantees
    Congress should retain the existing firewalls and funding 
guarantees for the highway and transit programs, but refine the Revenue 
Aligned Budget Authority mechanism to prevent negative adjustments as 
long as there is a positive balance in the Highway Trust Fund.
    Alaska Flexibility [23USC118(e)] Federal law allows Alaska to spend 
Federal highway funds on any public road. This provision is important 
for providing basic road improvements in rural Alaska.
    Interstate Design Standards and Maintenance Exemption [23USC103(c)] 
TEA-21provided exemptions for Alaska's non-conforming interstate 
system. Without these exemptions, Alaska would not be able to receive 
Federal highway funds.
    Ferries Several provisions provide funding for ferries and 
terminals and should be retained. Alaska would also benefit from 
Congress addressing several new issues during reauthorization, 
including:
    Expedited Permitting Congress should build on the efforts of TEA-21 
by reforming the NEPA process, clarifying the responsibilities of 
participating Federal agencies, and adopting a flexible approach to 
wetlands protection associated with highway development in Alaska where 
there is a high proportion of the watershed that is already wetlands.
    Planning and Conformity Congress should provide more flexibility 
with regard to update cycles for planning and funding documents 
required by the State and its Metropolitan Planning Organizations.
    Maintenance The State's obligation to the FHWA and Federal 
Government for maintenance oversight should extend no more than the 
design life of the project for roads other than interstate and NHS. 
This is particularly important for the smaller communities in Alaska 
that receive a one-time Federal-aid funded upgrade.
    Funds Transferability Transferring funds from one Federal 
transportation agency to another is often the most efficient means to 
manage a large complex project with funding from two or more agencies. 
Alaska has intermodal needs that often use funds from two or more 
agencies.
    For the benefit of the committee, I have submitted comments with my 
written testimony on general principles that are important to Alaska 
with respect to reauthorization. I also look forward to working 
separately with the Alaska delegation on specific provisions.
    In closing, Alaska is a unique State with sizable and varied 
transportation needs. It is critical that we continue to receive 
Federal support to expand and improve our transportation systems.

                               __________
 Statement of Jeffrey B. Staser, Federal Co-Chairman, Denali Commission

    Thank you Senator Murkowski, for the opportunity to add my 
observations to your deliberations on transportation infrastructure in 
Alaska.
    Nowhere is establishing an integrated transportation system more of 
a challenge than throughout the remote regions of Alaska with no access 
except by plane or boat. 223 of Alaska's 227 remote communities are 
federally recognized tribes, representing some 20 separate Native 
American cultures[1]. Many of these communities are over 1,000 miles 
from their State capitol, dispersed along 38 percent of the nation's 
shoreline and over 20 percent of its total landmass. All face a major 
physical impediment to economic self-sufficiency isolation.
    Recognizing that isolation has retarded basic community development 
throughout Alaska since statehood, in 1999 the Denali Commission Act 
created a partnership among State and Federal agencies to address the 
most persistent rural infrastructure problems. The Denali Commission 
seeks to implement its discrete goals through effective collaboration, 
and recognizes that private capital investment and lucrative jobs are 
attracted by competitive economic advantage. And everyone knows that 
such investment is rarely attracted to communities which lack access to 
the marketplace.
    I urge the committee to work with the Administration to bring 
national leadership into focus on Alaska's transportation challenges 
and would encourage the committee to consider how the Denali Commission 
might play a role in developing and implementing an effective overall 
State-Federal combined strategy for transportation in Alaska.
    Transportation is the tie that binds an economy together. A strong 
and efficient transportation system provides businesses with access to 
materials and markets, and provides people with access to goods, 
services, recreation, jobs and other people.
    As most members of this committee know, Alaska's communities have 
experienced severe economic distress as a result of job dislocation due 
to business closures and job layoffs in the timber and fishing sectors, 
and disincentives to development of Alaska's world class mineral, oil 
and gas resources. Even the seasonal and lower paying tourism sector 
has been impacted by world and national events beyond anyone's 
expectations. Quite simply, large groups of people, in some cases 
overnight, have found themselves out of work.
    To address this dramatic downturn, the Governor and his cabinet, 
and the Denali Commission is working with Federal agencies in an effort 
to help the most dramatically impacted communities get back on their 
economic feet.
    The President and Governor Murkowski have charged all agencies to 
focus on coordinated efforts, greater accountability for results, more 
efficient delivery of services and more effective execution of budget 
priorities. I am happy to report that coordination between the Denali 
Commission and its many government, non-profit and private sector 
partners is working. However, a missing link to achieving adequate 
health care, lower energy costs, and access to jobs across Alaska 
remains the State's challenges to developing an integrated 
transportation infrastructure.
    Transportation is a strategic investment that is essential to 
strengthen Alaska and enable its people to become economically self-
sufficient. I believe Alaska's rural communities can attain real 
economic improvement with an integrated transportation system that 
moves people, goods, information and services safely and efficiently.
    Thank you for the opportunity to provide this testimony. Your 
continued interest and first hand experience with Alaska's unique 
challenges provides hope and encouragement to hundreds of the Nation's 
most isolated communities.

                               __________
         Statement of Alaska State Representative Beverly Masek

    Senator Murkowski, members of the committee, welcome to Alaska! For 
the record, my name is Beverly Masek, and I am currently the co-chair 
of the Alaska House Transportation Committee.
    The opportunity to come before you today causes me to think about 
what is the mission of the U.S. Department of Transportation. In my 
mind it is to ensure a safe, accessible and convenient transportation 
system that meets the national interests, Alaska's statewide and local 
interests, and improves the quality of life of everyone.
    Transportation in Alaska is very unique. As a former Iditarod Trail 
dog musher I can personally attest that in this year of 2003, modes of 
transportation here in Alaska remain primitive on the one extreme, to 
reasonably modern on the other.
    From the west coast of Nome to the interior city of Fairbanks, the 
primary transportation link is by either boat, 4 wheeler or walking in 
the summer, to snow machines and sled dogs in the winter, or in the 
modern sense, by aircraft. No road exists.
    From the north slope community of Deadhorse to the Southcentral 
community of Homer, the road transportation system consists of gravel 
highways to two lane roads to a modern four lane stretch of highway. 
Each is unique in both form and structure.
    In Southeast Alaska, the marine highway system serves as the 
primary mode of transportation that connects each community, including 
the capital city of Juneau.
    The primary method that brings everything together is airports. Air 
service provides the vital link to most communities in Alaska.
    What can the US Department of Transportation do to help Alaska 
build and grow? There is no question that Federal funding for 
transportation projects and infrastructure development is vital to the 
growth of this State. Specifically, the Knik Arm crossing, connecting 
Anchorage with the Mat-su valley via a new highway and rail link, is by 
far the most costly, yet the most important project that can and should 
be completed. Anchorage, being bordered by mountains to the south, east 
and north, and bordered by cook inlet to the west, has pretty much 
grown to capacity. Not only will this crossing reduce the transit time 
into Anchorage, it will open the vast acreages of the western peninsula 
to both business and residential development. This link is vital to the 
future growth of Southcentral Alaska and I would encourage any avenue 
for funding available be pursued to make this great endeavor a reality.
    In western Alaska, community access roads would be a big step 
forward in starting to connect our remote communities. Later on, these 
communities could hopefully be linked to the Alaska highway system. 
These new links will also enhance development of our vast resources, 
helping reduce dependence on Canadian and other foreign minerals and 
resources.
    In Southeast Alaska, their economic survival depends upon a road 
link to the Cassia Highway via Bradfield Canal is critical. Also, a 
road link to our State capitol, via either the Taku Channel or Lynn 
Canal is vitally important to connect all Alaskans with their State 
government.
    But lets not just focus on roads. The airport system in Alaska is 
crucial to our economic vitality, not just to provide important links 
between communities, but to provide job opportunities for Alaskans. For 
example, at Ted Steven's Anchorage International Airport, cargo tonnage 
is 4t'' in the entire nation. This capacity can be increased 
substantially by alleviating all cargo transfer restrictions among the 
airlines utilizing the facility. This is a very high priority for us. 
It will also enable aviation carriers to bring America's imported 
commodities to other U.S. markets in a more timely manner, thus holding 
the line on costs of goods. We are working hard to create expanded 
opportunities for both U.S. and foreign cargo carriers. Enhancements to 
Ted Stevens Anchorage International Airport that will enable larger and 
more frequent landings are crucial to economic stability in Alaska.
    As you consider reauthorization of TEA-21, at a minimum the Alaska 
exemptions and flexibility provisions must be preserved. If not for 
those exemptions, most of the needed transportation infrastructure in 
Alaska could never be built.
    In closing, among your colleagues on the committee, the word rural 
will have different meanings, depending on where they are from. For 
example, if I lived in Vermont, and took State Route 4a from Castleton 
to Rutland, I would consider that rural. In Alaska, when you think and 
understand rural, you think of how to hitch up the dog team, catch the 
next flight, or find fuel for your snow machine. It is a vastly 
different concept and with your understanding of this concept, will 
come the understanding that without continued and substantial Federal 
funding and support, Alaska is inhibited in its ability to become a 
modern State by expanding and improving our transportation systems.
    Thank you all very much for coming here to Alaska to listen to and 
understand the complexity of transportation needs and issues faced by 
all Alaskans.

                               __________
   Statement of Trefon Angasan, Co-Chair, Board of Directors, Alaska 
                         Federation of Natives

                              INTRODUCTION

    Madam Chair, Honorable members of the U. S. Senate Committee on 
Environment and Public Works, ladies and gentlemen:
    For the record, my name is Trefon Angasan, Co-chair, Board of 
Directors of the Alaska Federation of Natives (AFN). As you may already 
know, AFN is a statewide Native organization formed in 1966 to 
represent Alaska's 100,000+ Alaska's Eskimos, Indians and Aleuts on 
concerns and issues which affect the rights and property interests of 
the Alaska Natives on a statewide basis.
    On behalf of AFN, it's Board of Directors and membership, thank you 
very much for inviting me to submit my comments regarding the 
transportation infrastructure needs in Alaska, and in particular, as 
these needs impact rural Alaska. It is a privilege and honor to testify 
in front of your committee.
    I ask that this written statement and my oral comments be 
incorporated into the record of this public hearing. I further request 
that the record of this hearing remain open for at least 2 weeks so 
that representatives of the Alaska Native Community may submit their 
comments regarding this issue as well.
    Rural Alaska is a home to more than 200 villages; and in many of 
these villages, unemployment ranges from 60 to 80 percent. Many of the 
people in rural Alaska are unemployed and will remain unemployed, not 
because they do not want to work; but because there, for all practical 
purposes, no jobs, other than jobs provided by the village 
corporations, IRAs, and other governmental agencies in rural Alaska.

                         ANCSA CORPORATE LANDS

    Pursuant to the terms and conditions of the Alaska Native Claims 
Settlement Act (ANCSA), enacted into law on December 18, 1971, Congress 
authorized transfer of 44.5 million acres of land back to the Alaska 
Natives through their ANCSA Corporations. ANCSA promised, in part, that 
the settlement of the claims of the Alaska Natives against he Federal 
Government ``should be accomplished rapidly, with certainty, 
inconformity with the real economic and social needs of Natives . . .'' 
[1]
    To date, none of the village and regional ANCSA corporations 
created pursuant to ANCSA has received their full land entitlements. 
One of the reasons of this delay is the lack of funds needed for the 
survey of the lands selected by the ANCSA corporations.
    The ANCSA Corporations, and in particular, the regional 
corporations selected their land entitlements based on natural 
resources explorations they conducted on the withdrawn lands from which 
they may select their land entitlements. Red Dog mine on NANA Regional 
Corporation is an example of a successful land selection process by a 
regional corporation. One of the primary reasons why the Red Dog mine 
is a success is access to the land where the zinc is located.
    Not all of the ANCSA lands with natural resources potential are 
being developed at the present time. Two of the primary reasons for 
this are lack of affordable electricity and lack of infrastructure in 
place. The case in point on this is the Donlin Creek properties. It is 
estimated that Donlin Creek property has 11 million measured and 
indicated ounces of gold with a cutoff of 1.5 grams of gold per ton.[2]

                 CREATING JOBS AND ECONOMIC DEVELOPMENT

    New studies undertaken by the Alaska Federation of Natives show 
that little has changed since 1994, when the Alaska Natives Commission 
concluded in its final report that ``acute and chronic'' unemployment 
was undermining Native society. Simply put, Alaska Natives need more 
jobs and economic opportunities, in both the urban areas (where many 
people have migrated to because of the depressed economic conditions in 
their home communities) and in rural Native villages.

                DEVELOPING TRANSPORTATION INFRASTRUCTURE

    One of the means of creating jobs and economic development 
opportunities in rural Alaska is access to affordable electricity as 
well as the development of transportation infrastructure.
    I believe that improving transportation infrastructure in rural 
Alaska is a critical corner stone to promoting economic development 
opportunities in rural Alaska. It will result in improved access; lower 
the cost of living where it is really needed; increases export 
opportunities, enhances mineral, oil and natural gas exploration and 
will help to stimulate economic activities in rural Alaska.

         2002 ANNUAL CONVENTION OF ALASKA FEDERATION OF NATIVES

    The Alaska Native Community recognizes that the transportation 
needs of rural Alaska are one of the paramount needs that exist and 
should be addressed in such a manner that their best interests are 
addressed. To that end, the delegates to the 2002 Annual

    CONVENTION OF AFN PASSED THE FOLLOWING RESOLUTIONS UNANIMOUSLY:

    1. RESOLUTION 02-08, NEW ALASKA NATIVE VILLAGE TRANSPORTATION 
INITIATIVE: This resolution, in part, requests Alaska's congressional 
Delegation to consider the inclusion of a new Alaska Native Village 
Transportation Initiative in the Congress's TEA 21 Reauthorization. The 
creation of this initiative would guarantee, in part, that Sec. 2(b) of 
ANCSA is implemented for the best interests of the Alaska Natives.
    2. RESOLUTION 02-34, A RESOLUTION REAFFIRMING THE DIRECTION OF THE 
ALASKA FEDERATION OF NATIVES STAFF TO TAKE ACTION TO RELAX THE U.S. 
ARMY CORPS OF ENGINEERS COST/BENEFIT ANALYSIS POLICY: One of the 
biggest impediments of construction of navigational systems that would 
provide safe travel to and from the villages is the Cost/Benefit 
Analysis Policy of the Corps of Engineers. This resolution calls the 
Corps of Engineers to view the projects in rural Alaska with a more 
relaxed approach they use when they view projects in the rest of the 
United States.
    3. RESOLUTION 02-38, INDIAN RESERVATION ROADS PROGRAM REGULATIONS, 
POLICIES, FUNDING AND MANAGEMENT: The Delegates to the 2002 Annual 
Convention of the Alaska Federation of Natives, Inc, urges that the 
Secretary of the Interior to issue fiscal year 2003 IRR program funds 
in the same manner as fiscal year 2002 including administrative 
capacity building funds; that the funding method for distribution of 
IRR program management and oversight funds to the 12 BIA Regional 
offices, including the Alaska Region, must be equitable distributed so 
that all federally Recognized Tribes can expect to receive a comparable 
level of BIA service from the ``6 percent'' IRR program management and 
oversight funds; and finally, the establishment of a policy that 
requires BIA Department of Transportation to collect required data for 
the fair and equitable implementation of the IRR formula from all 
Regions, and requiring it assist and/or gather the required information 
for non responsive, non-reporting Regions prior to the implementation 
of the IRR funding formula for any given year.
    4. RESOLUTION 02-39, DISTRIBUTION METHODOLOGY FOR fiscal year 2003 
INDIAN RESERVATION ROADS (IRR) PROGRAM: The Delegates to the 2002 
Annual Convention of the Alaska Federation of Natives, Inc., that the 
method for distributing IRR program funds in fiscal year 2003 should 
include Administrative Capacity Building funds in the amount of $35,000 
per tribe; and
    5. RESOLUTION 02-40, Reauthorization of the Transportation Equity 
Act for the 21St Century (TEA-2 1) Including the Indian Reservation 
Roads (IRR) Program: The delegates to the 2002 AFN convention urges 
that the reauthorization legislation clearly specify that the IRR 
Program is fully subject to PL 93-638 contracting/compacting at all 
levels and that the program may be contracted according to tribal 
formula shares; that the delegates support an increase in the 
Department of the Interior Appropriations for the IRR Road Maintenance 
Program to no less than $127 million annually in a manner which does 
not reduce appropriations to other BIA programs; and that the funding 
method for distribution of IRR program management and oversight funds 
to the 12 BIA Regional offices, including the Alaska Region, must be 
equitable distributed so that all federally Recognized Tribes can 
expect to receive a comparable level of BIA service from the ``6 
percent'' IRR program management and oversight funds.
    I ask that my statement and all its attachments be incorporated 
into the record of this hearing. The attachments are as follows:
    1. Copies of the resolutions I cited in this testimony;
    2. Copy of February 7, 2003 letter from Mr. Dimitri Philemonof, 
President and CEO of the Aleutian/Pribilof Islands Association, Inc. 
(APIA) to Julie Kitka, President of AFN. In this letter, Mr. Philemonof 
defines the transportation and transit needs of APIA region;
    3. Copy of February 14, 2003 letter from Mr. Terry Hoefferle, COO 
of Bristol Bay Native Association (BBNA) to Julie Kitka, President of 
AFN. In this letter, Mr. Hoefferle defines the transportation and 
transit needs of BBNA region; and,
    4. Copy of March 11, 2003 letter from Ms. Loretta Bullard, 
President of Kawerak, Inc. to Julie Kitka, President of AFN. In this 
letter, Ms. Bullard defines the transportation and transit needs of 
Kawerak region.
    Finally, please review each of the letters I attached to my 
statement as they define the transportation and transit needs of these 
regions of Alaska.
    Thank you for your consideration. If you have any questions 
concerning this statement, I can field them now.

                   ALASKA FEDERATION OF NATIVES, INC.
                         2002 annual convention

                            RESOLUTION 02-08

    TITLE: NEW ALASKA NATIVE VILLAGE TRANSPORTATION INITIATIVE
    WHEREAS: Rural Alaska is decades behind the rest. of the United 
States in regard to basic community road infrastructure; and
    WHEREAS: Many villages have totally unimproved road infrastructure, 
experience annual flooding, dust control problems, and other problems; 
and
    WHEREAS: The existing Indian Reservation Roads program has never 
adequately served Alaska or met more than a small fraction of the road 
construction. needs of Alaska Native villages; and
    WHEREAS: Having adequate road infrastructure is essential to any 
economic development and for health and safety; and
    WHEREAS: The State of Alaska encompasses about 1/5 the land mass of 
the rest of the United States but has the least mileage of roads; and
    WHEREAS: Two-thirds of the communities of Alaska have no outside 
roads access.
    NOW, THEREFORE, BE IT RESOLVED by the Delegates to the 2002 Annual 
Convention of the Alaska Federation Natives, Inc., that it requests the 
Alaska congressional Delegation to include a new Alaska Native Village 
Transportation Initiative it the reauthorization of the national 
highways bill.
    BE IT FURTHER RESOLVED that.the Alaska Native Village. 
Transportation Initiative should, to the maximum extent feasible, 
provide for the following:
    1. Local tribal or regional control of planning, project selection, 
and construction.
    2. Native contracting authority pursuant to PL 93-638.
    3. An annuitized maintenance fund for village roads projects.
    4. Adequate training for construction and maintenance of village 
transportation infrastructure.

                      ALASKA FEDERATION OF NATIVES
                         2002 annual convention

                            RESOLUTION 02-34

    TITLE: A RESOLUTION REAFFIRMING THE DIRECTION OF THE ALASKA 
FEDERATION OF NATIVES STAFF TO TAKE ACTION TO RELAX THE U.S. ARMY CORPS 
OF ENGINEERS COST/BENEFIT ANALYSIS POLICY
    WHEREAS: The Alaska Federation of Natives Convention adopted 
resolution 99-48 which called for the Alaska Federation of Natives to 
work with the U.S. Army Corps of Engineers, and the Alaska 
congressional Delegation to relax the cost benefit policy, and
    WHEREAS: Efforts were undertaken to implement resolution 99-48, 
however, the process requires a renewed effort to change the Federal 
cost benefit policy and its application to rural Alaska Native 
Villages, and
    WHEREAS: A similar resolution was adopted by the AFN Convention in 
2001; and
    WHEREAS: That the AFN staff report to the AFN Board of Directors on 
the progress in the implementation of this resolution, and
    WHEREAS: The U.S. Army Corps of Engineers grants funding based on a 
cost/benefit analysis policy, and
    WHEREAS: Rural Alaska communities that need projects to protect 
their communities infrastructure or to enhance economies are denied 
funding based on the cost/benefit analysis, and
    WHEREAS: Rural Alaska communities with predominantly small 
populations and economies will not qualify for projects funded by the 
UPS Army Corps of Engineers based on the cost/benefit analysis, and
    NOW THEREFORE BE IT RESOLVED: That the Convention of the Alaska 
Federation of Natives calls for action to relax of the U.S. Army Corps 
of Engineers cost/benefit policy; and, .
    BE IT FURTHER RESOLVED: That the Alaska Federation of Natives works 
closely with the Alaska congressional Delegation, U.S Army Corps of 
Engineers, National Congress of American Indian and other Federal, 
tribal, regional, and State agencies to relax the cost/benefit analysis 
of the Corps to permit the construction of the rural Alaska 
infrastructures.
                 SUBMITTED BY: NATIVE VILLAGE OF UNALAKLEET
                           COMMITTEE ACTION: DO PASS TIER 2
                                  CONVENTION ACTION: PASSED
                                 ______
                                 
                      ALASKA FEDERATION OF NATIVES
                         2002 annual convention

                            RESOLUTION 02-38

    TITLE: INDIAN RESERVATION ROADS PROGRAM REGULATIONS, POLICIES, 
FUNDING AND MANAGEMENT
    WHEREAS: Transportation Equity Act for the 21st Century, the 
highway legislation enacted in 1998, tasked the Secretary of the 
Interior to develop the Indian Reservation Roads (IRR) program 
regulations and a funding distribution formula under a negotiated 
rulemaking process; and
    WHEREAS: The IRR program can provide funding to Alaska Native 
villages and communities which traditionally have been particularly 
underserved in regards to transportation and road infrastructure; and
    WHEREAS: A Federal notice for proposed rulemaking (NPRM) for the 
IRR Program, 25 CFR Part 170, was published in the Federal Register on 
August 7, 2002; and
    WHEREAS: The final rule regarding the IRR program funding formula 
is unlikely to be implemented until fiscal year 2004; and
    WHEREAS: Several provisions of TEA-21 directly affect the Indian 
Self Determination and Education Assistance Act (ISDEAA), Public Law 
93-638, as amended by tribes to contract Indian Reservation Road 
projects,
    WHEREAS: The Secretary of the Interior may only release fiscal year 
2003 IRR funds in accordance with a formula established under a 
Negotiated Rulemaking which includes representation from Alaska; and
    WHEREAS TEA-21 authorizes $1.6 billion for the Indian Reservation 
Roads Program for fiscal years 1998-2003,
    WHEREAS: The IRR program management and oversight funds are 
provided to the 12 Bureau of Indian Affairs (BIA) Regions to provide 
for inherently Federal IRR functions including IRR program technical 
assistance; and
    WHEREAS: The BIA has historically distributed funds for IRR program 
management and oversight to the 12 BIA Regional Offices based on the 
old relative need formula, a method that does not take into account the 
difficulty in providing services to the 228 Alaska Native Villages; and
    WHEREAS: The Alaska Native Villages have not received an equitable 
level of BIA inherently Federal services when compared to the Tribes 
from other BIA regions; and
    WHEREAS: The BIA Alaska Region Office have been unable to provide 
Central Office all required IRR road inventory and construction cost 
data for Alaska's tribes as required for fair and equitable 
distribution of IRR funds nationally; and
    WHEREAS: The IRR Negotiated Rulemaking committee did not consider 
the method for distributing IRR program management and oversight funds; 
and
    WHEREAS: The BIA has a policy currently in place that limits the 
number of miles at can be added to the BIA's IRR Inventory to 2 percent 
per year; and
    WHEREAS: Most Native Villages in the State of Alaska do not have an 
IRR inventory that identifies at a minimum all community streets or, 
primary access routes; and
    WHEREAS: The most current IRR Inventory Update for Alaska has 57 
tribes with a Cost-to-Improve of zero; and
    WHEREAS: The amount of funding to Alaska Native, Villages for 2 
percent tribal transportation planning is less than $3,000 per year as 
distributed by the region; and
    WHEREAS: The IRR Maintenance Program is grossly under funded;
    WHEREAS The purpose of the Indian Reservation Roads Program is to 
provide safe and adequate transportation and public road access to and 
within Indian reservations, Indian lands, and communities for Indian 
and Alaska Natives, and others, while contributing to economic 
development, self-determination, and employment of Indians and Alaska 
Natives,
    NOW THEREFORE BE IT RESOLVED by the Delegates to the 2002 Annual 
Convention of the Alaska Federation of Natives, Inc, that the Secretary 
o the Interior be urged to issue fiscal year 2003 IRR program funds in 
the s me manner as fiscal year 2002 including administrative capacity 
building funds; and
    LET BE IT RESOLVED that the delegates support the Tribal 
Transportation Allocation methodology developed by the IRR negotiated 
rulemaking committee which provides for a minimum allocation of IRR 
Program funds to all federally Recognized Tribes and the establishment 
of High Priority Projects to provide for tribes that would not generate 
enough funding under the funding distribution formula to construct 
their highest priority project within the period of the transportation 
authorization; and
    BE IT RESOLVED that the delegates support the elimination of the 
BIA policy to limit increases to the IRR inventory for funding purposes 
to 2 percent o per year, and that at a minimum all IRR Inventories 
should include for funding purposes all community streets and all 
primary access roads or trails; and
    BE IT RESOLVED that the delegates support an increase of no. less 
than. $100 million annually in the Department of the Interior 
appropriations for IRR road maintenance without harming other BIA 
programs, and that a method .for equitable distribution should be 
tasked to the IRR program coordinating, committee identified within the 
NPRM; and
    BE IT FURTHER RESOLVED, that the funding method for distribution of 
IRR program management and oversight funds to the 12 BIA Regional 
offices, including the Alaska Region, must be equitable distributed so 
that all federally Recognized Tribes can expect to receive a comparable 
level of BIA service from the ``6 percent'' IRR program management and 
oversight funds; and
    BE IT FINALLY RESOLVED that the delegates support, the 
establishment of a policy that requires BIA Department of 
Transportation to collect required data for the fair and equitable 
implementation of the IRR formula from all Regions, and requiring it 
assist and/or gather the required information for non-responsive, non-
reporting Regions prior to .the implementation of the IRR funding 
formula for any given year.
SUBMITTED BY: KAWERAK INC., ASSOCIATION OF VILLAGE COUNCIL 
                                                 PRESIDENTS
                           COMMITTEE ACTION: DO PASS TIER 2
                                  CONVENTION ACTION: PASSED
                                 ______
                                 
                   ALASKA FEDERATION OF NATIVES, INC.
                         2002 annual convention

                            RESOLUTION 02-39

    TITLE: DISTRIBUTION METHODOLOGY FOR fiscal year 2003 INDIAN 
RESERVATION ROADS (IRR) PROGRAM
    WHEREAS: The Transportation Equity Act for the 21st Century (TEA-
21), the highway legislation was enacted in 1998 and is valid through 
fiscal year 2003; and
    WHEREAS: TEA-21 required the development of a distribution formula 
for the IRR program through a Negotiated Rulemaking process; and
    WHEREAS: The final rule for an IRR funding formula is not yet 
available and is not expected to be available for fiscal year 2003; and
    WHEREAS: In fiscal year 2000, fiscal year 2001, and fiscal year 
2002 the distribution methodology for the IRR program was done on an 
interim basis as negotiated by the IRR Neg-Reg committee; and
    WHEREAS: The amount of 2 percent Tribal Transportation Planning 
funds available to tribes within the State of Alaska has been 
insufficient to perform viable transportation planning; and
    WHEREAS: The method for distribution for both fiscal year 2001 and 
fiscal year 2002 included special funding for Administrative Capacity 
Building in the amount of $35,000 per tribe to those tribes that 
applied; and
    WHEREAS: The Administrative Capacity Building funds were 
desperately needed and greatly appreciated by the Native Communities 
within Alaska;
    NOW THEREFORE BE IT RESOLVED by the Delegates to the 2002 Annual 
Convention of the Alaska Federation of Natives, Inc., that the method 
for distributing IRR program funds in fiscal year 2003 should include 
Administrative Capacity Building funds in the amount of $35,000 per 
tribe; and
    BE IT FINALLY RESOLVED that the Delegates to the 2002 Annual 
Convention of the Alaska Federation of Natives, Inc. direct the Alaska 
Contingent of the IRR Neg-Reg Committee to negotiate for the 
continuation of the $35,000 Administrative Capacity Building funds and 
provide this resolution as formal comment to the IRR Co-Chairs, the IRR 
Neg-Reg committee, the Assistant Secretary Indian Affairs, and the 
Administrator of the Federal Highway Administration.
                                  SUBMITTED BY: KAWERAK INC
                           COMMITTEE ACTION: DO PASS TIER 2
                                  CONVENTION ACTION: PASSED
                                 ______
                                 
                      ALASKA FEDERATION OF NATIVES
                         2002 annual convention

                            RESOLUTION 02-40

    TITLE: REAUTHORIZATION OF THE TRANSPORTATION EQUITY ACT FOR THE 
21sT CENTURY (TEA-21) INCLUDING THE INDIAN RESERVATION ROADS (IRR) 
PROGRAM
    WHEREAS: The Transportation Equity Act for the 21st Century (TEA-
21) is the current highway transportation legislation through which 
federally funded road construction is authorized; and
    WHEREAS: TEA-21 was enacted in 1998 and is valid through fiscal 
year 2003, but must be reauthorized by Congress in 2004; and
    WHEREAS: TEA-21 includes authorization for the Indian Reservation 
Roads (``IRR'') Program, which is the Federal program appropriated to 
the Federal Highways Administration (FHWA) and administered by the 
Bureau of Indian Affairs (BIA) that provides roads construction funds 
to Indian tribes, including Alaska Native tribes; and
    WHEREAS: TEA-21 required the development of IRR program regulations 
and funding formula through a negotiated rulemaking process, and the 
work product of this process was published in the Federal Resister as a 
Notice of Proposed Rulemaking (``NPRM'') on August 7, 2002; and
    WHEREAS: Alaska Natives tribes have been historically underserved 
by the IRR program due to lack of IRR road inventory data, incorrect 
application of cost data by the BIA, and other problems with the 
administration of the program by the BIA; and
    WHEREAS: The NPRM addresses many of the problems in the operation 
of the IRR program, but the Federal members of the committee blocked 
development of regulations for several significant areas of concern, 
and not all problems related to the funding distribution were 
addressed; and
    WHEREAS: Some of the remaining problems in the IRR construction 
program are:
    <bullet>  The IRR inventory the BIA uses to distribute funding does 
not include even minimally complete road inventories from Alaska Native 
villages;--BIA has effectively ``locked out'' Alaska tribes by imposing 
a policy limiting the miles that can be added to the BIA's IRR 
Inventory to 2 percent per year;
    <bullet>  Alaska's actual road construction costs are not applied 
in the ``cost to construct'' portion of the IRR funding formula;--The 
amount of funds available to the BIA Regions for program management and 
oversight is inequitably distributed;
    <bullet>  The ``2 percent tribal transportation planning'' funding 
has been on average less than $3,000 per tribe per year in Alaska and 
is inadequate to address even basic planning;
    <bullet>  BIA continues to resist full applicability of PL 93-638 
to IRR funds; and
    WHEREAS: The BIA Roads Maintenance Program, which is currently 
outside of TEA-21 and funded in the Department of the Interior 
appropriations, is grossly under funded nationally at $26 million per 
year; and
    WHEREAS: There are other programs within the reauthorization of 
TEA-21 that could better serve the tribes through direct access of the 
programs at the U.S. Department of Transportation; and
    WHEREAS: A national TEA-21 Reauthorization Task Force sponsored by 
the National Congress of American Indians has developed a national 
tribal position on TEA-21 reauthorization, that includes:--increasing 
IRR appropriation to $500 million per year;
    <bullet>  Additional tribal set-asides for the Federal Transit 
Authority and other programs within FHWA;
    <bullet>  Increases to bridge funding;
    <bullet>  Various technical corrections to the administration of 
the IRR program;
    NOW THEREFORE BE IT RESOLVED by the Delegates to the 2002 Annual 
Convention of the Alaska Federation of Natives, Inc., that they 
support, in general, the national position of the NCAI Reauthorization 
Task Force in regard to funding increases, additional tribal set-aside 
programs, and technical corrections to the administration of the IRR 
program; and
    BE IT FURTHER RESOLVED that the Delegates request specific 
legislative changes to the IRR program that require the BIA to:
    1) Develop IRR road inventories for each Alaska Native village, 
including at a minimum all village streets, primary access roads and 
trails, and economic enhancement projects identified by the tribe, and 
to use such inventories in the funding distribution for the IRR 
program;
    2) Use actual construction cost data from Alaska when applying the 
IRR funding formula and to update such data annually;
    3) Continue the allocation of Administrative Capacity Building 
funds at $35,000 per tribe throughout the authorization period; and
    BE IT FURTHER RESOLVED that the reauthorization legislation clearly 
specify that the IRR Program is fully subject to PL 93-638 contracting/
compacting at all levels and that the program may be contracted 
according to tribal formula shares; and.
    BE IT FURTHER RESOLVED that the delegates support an increase in 
the Department of the Interior Appropriations for the IRR Road 
Maintenance Program to no less than $127 million annually in a manner 
which does not reduce appropriations to other BIA programs; and
    BE IT FINALLY RESOLVED that the funding method for distribution of 
IRR program management and oversight funds to the 12 BIA Regional 
offices, including the Alaska Region, must be equitable distributed so 
that all federally Recognized Tribes can expect to receive a comparable 
level of BIA service from the ``6 percent'' IRR program management and 
oversight funds.
                                 SUBMITTED BY: KAWERAK, INC
                           COMMITTEE ACTION: DO PASS TIER 2
                                  CONVENTION ACTION: PASSED

                               __________
                Aleutian/Pribilof Islands Association, Inc.
                                           201 E. 3d Avenue
                          Anchorage, Alaska 99501, February 7, 2003

Ms. Julie Kitka, President
Alaska Federation of Natives
1577 ``C Street, Suite 300
Anchorage, Alaska 99501
    Re: Rural Alaska Transportation Needs/Projects Dear Ms. Kitka:
    The Aleutian/Pribilof Islands Association is pleased to respond to 
your request for a list of high priority transportation needs in the 
Aleutians and Pribilofs region. Attached to this letter you will find a 
list of priority projects by community, but which have not been 
prioritized on a region-wide basis.
    As you are aware, the Bureau of Indian Affairs and the Federal 
Highway Administration have made planning funds available to tribes 
under the Indian Reservation Roads Capacity Building program. The 
tribes in our region have utilized this temporary funding to address 
long-range transportation planning, update and correct roads into the 
BIA road inventory system, and do cooperative' inter-agency planning at 
the local, State and Federal level. In addition, to the projects listed 
on the enclosed priority list, our villages have identified a need for 
continued funding for transportation planning at the local level. 
Efficient, viable and safe transportation is vital to the well-being of 
the residents of our region who live in some of the most remote and 
difficult to access' areas of Alaska.
    We look forward to working with you on the transportation needs for 
Alaska Natives. Please feel free to contact Bobby Jo Kramer, 
Transportation Planner, at (907) 276-2700 if you have any questions 
regarding transportation issues in our region.
            Sincerely,
                                         Dimitri Philemonof
                                                  President and CEO

                               __________
                   ALASKA FEDERATION OF NATIVES, INC.
         1577 ``C Street, Suite 300 Anchorage, Alaska 99501

                               MEMORANDUM
    TO: AFN Board of Directors
    FROM: Julie Kitka, President
    RE: Rural Alaska Transportation Needs/Projects
    DATE: January 22, 2003
    AFN staff held a Roads Strategy Meeting on January 21, 2003 to 
continue our efforts in creating employment and economic development 
opportunities for Alaska Natives and Alaska Native organizations in 
transportation and related fields. One major discussion was to find 
ways and means to assist The Honorable Don Young, Chairman of the U. S. 
House Transportation and Infrastructure Committee, to establish highway 
and transit projects in the State of Alaska.
    AFN is willing to consider incorporating the transportation needs 
of the Alaska Natives into the Alaska statewide high priority 
transportation plans; however, we think that it is in the best 
interests of the Alaska Natives to work directly with Chairman Don 
Young of Alaska in establishing the high priority transportation needs 
of the Alaska Natives on their own merits. In doing so, we feel that 
the Alaska Native Community would be able to establish local and Native 
control leading to Alaska Native hire in the development of 
transportation needs of the Alaska Natives in rural Alaska.
    Please furnish AFN your existing high priority transportation needs 
from your respective region. In defining the transportation needs of 
your region, include where they are needed, a brief description of such 
needs and include a brief justification for each need. We will 
incorporate what you send us into what we would characterize as 
statewide Alaska Native Highway and Transit Needs. Once this is 
established, we will submit this package to the Honorable Don Young for 
his consideration.
    During the course of this meeting, the participants decided that 
Alaska Federation of Natives would act as a clearinghouse for the high 
priority transportation needs of the Alaska Natives, and Julie Kitka,
    President would be in charge of this clearinghouse on behalf of 
AFN.
    A major priority of the Denali Commission in 2003 is to establish a 
statewide transportation system for Alaska. To this end, then Senator 
Frank Murkowski introduced S. 3106, the ``Denali Transportation System 
Act.'' This bill would have amended the Denali Commission Act of 1998 
such that it would be authorized to deal with statewide transportation 
infrastructure by incorporating the urban and rural highway and transit 
projects in the State of Alaska.
    Attached, please find the following for your review:
    1. TEA 21 REAUTHORIZATION: This is a copy of a letter written by 
Congressman Don Young and James L. Oberstar to the U. S. House 
Committee on Transportation and Infrastructure requesting the committee 
members to identify specific surface transportation projects that would 
improve surface transportation in the districts of the committee 
members.
    2. TRANSPORTATION NEEDS SUMMARY: This document summarizes the 
various transportation needs throughout the State of Alaska.
    3. Rural Transportation Plans: This document was used by the Alaska 
Department of Transportation and Public Facilities in briefing the 
Denali Commission on its rural transportation plans.
    4. Denali Commission Quarterly Meeting: This is briefing paper on 
Rural Transportation Plans for Alaska on the issue of Community and 
industrial transportation needs in rural Alaska. The last three pages 
of this document lists the Department of Transportation's High-Priority 
List and identifies the projects under the Project Title.
    5. Copy of S. 3106: This is a copy of a bill that was introduced 
during the second Session of the 107th Congress. This bill would amend 
the Denali Commission Act of 1998 by establishing the Denali 
transportation system in Alaska. This bill died when the 107th Congress 
adjourned. This bill may be reintroduced in its present form during the 
108th Congress.
    I am looking forward to hearing from you concerning the high 
priority transportation needs of your respective regions as soon as 
possible.
    Thank you for your consideration. If you have any questions 
concerning this memo, please call me at AFN. In my absence, please ask 
for Nelson N. Angapak, Sr. of my staff. He is working with me on this 
issue.

                               __________
                     BRISTOL BAY NATIVE ASSOCIATION
                   Dillingham, AK 999576, February 14, 2003
Julie Kitka, President
Alaska Federation of Natives
1577 ``C'' Street, Suite 300
Anchorage, AK 99501
Re: Bristol Bay's Transportation Needs Dear Julie:
    Please consider this letter a summary of our region's 
transportation needs.. We're pleased to see that AFN will be working 
with Representative Don Young and the Denali Commission to address 
transportation infrastructure needs in our State.
    We view improving transportation in our region as a critical comer 
stone to promoting economic development. It results in improved access; 
lowers the cost of living; increases export opportunities; enhances 
mineral, oil, and natural gas exploration and development (which will 
lower our region's extremely high energy costs), and will help to 
stimulate economic activity in our region. With the Bristol Bay area 
having been declared an economic disaster four out of the last 6 years, 
there's,a strong need for employment opportunities in our region.
    Our highest transportation priority is to address our region's 
fisheries transportation needs. Despite our fishery experiencing severe 
economic problems, we anticipate our fishery to play a vital role in 
our region's economy.
    A. All-tide docks, boat ramps, and staging areas:
    Our region's salmon fishery once had as many as 24 salmon buyers 
(many of whom were floating processors) however we're now down to about 
7 or 8 salmon buyers (now mostly shored-based processors). If Bristol 
Bay's salmon runs begin to rebound and the returns come back strong, we 
envision the need to move salmon as quickly as possible from tenders to 
either on-shore processing plants or airports for shipment to world 
markets.
    Improving access for cargo and fish delivery is essential for our 
coastal fishing communities--not only to stimulate local economic 
activity and create jobs, but to also improve upon raw fish landing 
taxes. The region's lack of all-tide docks, boat ramps, and staging 
areas also has a direct impact on salmon quality. At times, salmon 
tenders must wait up to six (6) hours on Bristol Bay's high tidal 
conditions before they can deliver salmon to shore-based processing 
plants. Many of our coastal villages that get freight via barges during 
the summer months need larger facilities and staging areas to 
accommodate the transfer of freight.
    1. Togiak Dock & Staging Area: $ Unavailable
    The city of Togiak would like to construct a dock and staging area 
in their village to enable barges to offload cargo in their community. 
This facility will be constructed near the community's old cannery.
    2. Togiak All-tide Boat Ramp, Staging Area, and Access Road: $ 
Unavailable
    The city of Togiak has plans to construct an access road to a 
deepwater site located west of the village and would like to construct 
an all-tide boat ramp and staging area at the site. This project would 
enable the community to improve their access to the fishing grounds to 
help diversify their fishing economy. The Togiak fishing district not 
only produces salmon and herring but is rich with shrimp, crab, 
yellowfin sole, sea cucumbers, sea urchins and other species.--Without 
these combined projects, Togiak fishermen must wait on tidal conditions 
to access shore-based plants and their community
    3. Dillingham All-tide Dock: $4.1 million
    The city of Dillingham has plans to construct an all-tide dock. 
This dock will be build where the old Dillingham Cold Storage dock 
currently exists and is no longer being, used. It will be located 
adjacent to the existing container dock. It will extend seaward 100 
feet beyond where the old cold storage existed, and the face of the 
dock will reach the minus 4 foot tide mark for the area. It will be 
build out of steel and be 5 feet lower than the old cold storage dock 
to facilitate greater cargo handling for the community--determined at 
up to 18 hours per day.
    4. Chignik Public Dock: $4 million
    Despite being a hub community for 5 communities in the Chignik 
area, this community does not have a public dock. This project will 
construct a new public dock/port facility that consists of an all tide, 
deep draft, 300 foot heavy capacity dock, boat lifts, eight acres of 
uplands for storage, cargo handling, fish processing and boat repair, 
and facilities to accommodate the Alaska Marine Highway System. The 
design and permitting process are nearly complete.
    5. Naknek All-Tide Dock: $5 million
    The Bristol Bay Borough wants to construct an all-tide dock in 
Naknek. Plans for this facility will include temporary boat mooring 
accommodations. The face of the dock structure will extend to the edge 
of the existing river channel to accommodate limited capacity low tide 
access. Basic services provided at the facility will include fuel, 
water, ice and electricity to the dock structure. It will also provide 
upland development facilities that will include as a minimum: Public 
parking, restrooms, laundry, showers and fish processing. The site 
should ideally be located such that additional land area is available 
to include future expansion and development for value-added fish 
processing and other related commercial development. Preliminary 
project design and construction cost goals are to be about $5 million.
    6. Perryville Cargo Dock: Estimated @ $1.8 million
    The community of Perryville has been trying for years to obtain 
funds to construct a cargo dock near their community. To date the 
community uses a towed landing craft that is park on the beach in front 
of the village to haul cargo, however this barge cannot be used during 
windy onshore conditions. The community would prefer to use steel 
pilings to construct the dock, however is willing to utilize 
interlocking metal sheets filled with cement to haul cargo on. The 
construction of this dock would enable the ferry, system that travels 
between Chignik and Sand Point to stop at their community.
    B. Airports: 6,000-foot runways in each commercial fishing 
district:
    Area communities want 6,000' runways so goods can be flown in 
directly from Anchorage instead of being shuttled through hub 
communities, and salmon can be flown directly to both domestic and 
international markets. These 6,000' runways are considered critical to 
communities in the western part of the region because the State 
Department of Transportation (DOT) has no long-term plans for 
construction of roads between these communities. Every major fishing 
district in our region should have at least one 6000' airstrip, paved 
and lighted to enable the movement of fish and heavy cargo into and out 
of that district.
    Many villagers pay in excess of 200 percent for the same loaf of 
bread or gallon of milk, etc, when compared to Anchorage's store prices 
(most ``fresh items'' are simply not available). Fuel oil and gasoline 
follow suit with costs per gallon well in excess of $2.50 to $4.00. 
Extremely high electrical costs are yet another direct result of short 
airstrips, due to limitations on the number of gallons smaller 
aircrafts are able to transport on a ``per flight'' basis. Additional 
flights have to be made to fly in fuel in sufficient quantities to get 
the smaller communities through the winter months. This drives the 
costs up dramatically.
    Villagers in our region who live only a few miles apart are unable 
travel to the village ``next door'' due to costs of flights or lack of 
scheduled air transportation. Not only is this a safety issue, the lack 
of adequately sized runways limits the size/capacity of aircraft that 
can be used to provide needed fuel, groceries and deliver and/or 
backhaul freight (fish). The result is a lower standard of living due 
to a much higher than average ``cost of living''
    To date, Dillingham has a 6,400-foot airport; King Salmon has a 
cross-strip airport that measures 4,000 feet and 8,500 feet 
respectively; and Egegik recently had a 5,600-foot airport constructed.
    1. Togiak Airport Extension and Cross-strip Completion: $ 
Unavailable
    The community of Togiak, which is the second largest community in 
the region, would like to complete the extension of the cross-strip 
that is currently closed. The Bureau of Indian Affairs recently 
upgraded the roads in the community, and began to construct a cross-
strip however did not complete the project because funds were 
exhausted. The cross-strip is only 1,920 feet long. The community has a 
4,400-foot east and west airport that should be extended to 6,000 feet 
to accommodate ``Herc-able'' cargo planes to fly salmon out from the 
community.
    2. Chignik Airport Lighting & Resurfacing: $1.4 million
    The community of Chignik would like to install airport lighting and 
resurface its 2600'x 60' runway, taxiway and apron with 9'' of new 
gravel.
    3. Clark's Point Airport Completion & Extension: $ Unavailable
    In 2002, DOT began constructing a new airport in this community, 
which is located in the hub of Nushagak's commercial fishing district, 
however had to stop its construction because a section of the airport 
kept settling. This particular airport should be completed and extended 
to accommodate large cargo planes to land in the community and fly fish 
out.
    4. Pilot Point Airport Extension: $ Unavailable
    The community of Pilot Point serves as the hub community for the 
Ugashik commercial fishing district. It recently had a new 3,280-foot 
airport constructed, however the community needs an airport that is at 
least 6,000 feet long to enable large cargo planes to fly salmon out.
    C. Roads:
    Roads should be constructed from hub or regional airports to 
villages nearby. Villages need to be & deserve to be connected by road, 
if not to the outside `road system'' at least to the closest hub or 
regional airport. In many cases, four wheeler trails exist between 
villages and usually follow the best routes due to local knowledge of 
the terrain, impacts from rivers, winds, etc. Many of these trails 
should be examined and where possible, improved and made into at least 
seasonal roads adequate enough to transport fuel and freight over 
during the summer and fall.
    1. Williamsport/Pile Road: Roads $10 million/(including port 
facilities) Corps $3.9 million
    The Lake and Peninsula Borough has been working to get the 
Williamsport/Pile Bay road and bridge upgraded. This one-lane road has 
been used to haul Bristol Bay commercial fishing boats between the Cook 
Inlet area and Bristol Bay, however the bridge is too small to 
accommodate most of today's larger 32' vessels. Plans are to make it a 
two-lane road and increase the size of the bridge to accommodate larger 
boats. To improve on accessing the road at Williamsport on the Cook 
Inlet side, the Army Corps of Engineers would need to dredge the area. 
Once this route is upgraded, freight costs to the Iliamna Lake area 
communities is expected to decrease substantially. The Lake and. 
Peninsula Borough has agreed to maintain the road.
    2. Iliamna/Nondalton road: $5 million
    This DOT project will complete the road link between the 
communities of Iliamna, Newhalen, and Nondalton. The project has been 
``work in progress'' since the 1970's and the road is substantially 
complete for 13 miles to the proposed bridge site at the Newhalen 
River. The project consists of road improvements from the Iliamna 
airport to the bridge site (13 miles), a one-lane bridge over the 
Newhalen River, and significant improvements for the remaining 2 miles 
to Nondalton. Engineering and permitting activities are almost 
complete.
    3. Anchorage to Bristol Bay road/railroad feasibility study:
    Many in Southwest Alaska support some type of ground transportation 
connection to Alaska's road system or rail-belt. Such a connection is 
discussed in the Southwest Alaska Transportation Plan and should be 
pursued with Federal dollars as soon as practical. If the mineral 
exploration now occurring within the region proves to be viable, 
serious consideration must be given to a transportation inter-tie to 
either the road system or the railroad. The community of King Salmon 
fully supports the construction of a road or railroad from Anchorage to 
their community. This particular feasibility study should include 
documentation of village support from communities that are expected to 
be impacted (i.e. resolutions of support from all the Iliamna 
communities).
    D. Expand the Alaska Ferry\1\ System in Bristol Bay.
---------------------------------------------------------------------------
     \1\1Sec. 2(b) of P.L. 92-2031
---------------------------------------------------------------------------
    While Southeast, Southcentral, and Alaskan Peninsula communities 
located on the Gulf of Alaska enjoy the benefits of the Alaska Ferry 
System, no benefits are realized in Bristol Bay. Once the Williamsport/
Pile Bay road and bridges have been upgraded, and dredging is completed 
at the Williamsport site, then the Alaska Ferry System can offload 
passengers and vehicles at Williamsport.
    In the future, there's a need to take a serious look at expanding 
the Alaska Ferry System into Bristol Bay served by the ``Blue Canoe'' 
to Naknek's deepwater dock. From that deepwater dock, smaller, 'high-
speed ferries can be utilized accessing communities around Bristol Bay 
and up the Kvichak River to Iliamna Lake area. It makes sense to 
incorporate more, smaller, high-speed ferries to enable service to the 
Bristol Bay area.
    By-pass Mail:
    Other than improving transportation needs, there's a need to 
protect ``by-pass mail''. Communities depend upon the bypass mail rates 
to help keep the cost of living down. Tons of groceries an supplies are 
mailed annually to all the villages. It is imperative that the intent 
of' the original by-pass mail provision to reduce cost be maintained.
    Thank you for your attention on this matter. If you have any 
questions, please don't hesitate to call me at 1-800-478-5257 or email 
me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="403425323239280022222e216e232f2d6e">[email&#160;protected]</a>
            Sincerely,
                       Terry Hoefferle, Chief of Operations
                                     Bristol Bay Native Association

                               __________
    Statement of George P. Wuerch, Mayor, Municipality of Anchorage

    Good morning madam chair, members of the committee, my name is 
George Wuerch and I am the Mayor of the Municipality of Anchorage. I am 
here this morning to testify in support of several changes to Federal 
laws that impact public works and to champion two specific projects 
that I believe will greatly benefit the majority of State residents. I 
also want to acknowledge from the outset the tremendous impact that 
TEA-21 and its successor legislation has had on this State and this 
Nation.
    One particular Federal act with which we wrestle is the National 
Environmental Policy Act, or NEPA, which has had grave consequences for 
many of our local public works projects. Because of Alaska's unique 
geography, practically every project we undertake requires us to 
navigate this cumbersome and costly process.
    The Act is not the problem so much as its implementation. It takes 
far too long, it is expensive to comply, it invites litigation by 
environmental groups, and it is inconsistently implemented by each 
agency of the Federal Government. I'm sure the committee has heard 
these complaints aired before. But from our standpoint, what's really 
missing is recognition of the legitimate role for local government in 
the decisionmaking process. NEPA was designed to protect the integrity 
of the environment, but it has morphed into a regulatory strait jacket 
which supplants the economic needs of the community with agency 
preferences for environmental preservation.
    Let me be very specific on this issue. The problem lies in the 
application of NEPA to local decisions to expand or improve on 
facilities that already exist; such as changing highway intersections 
and adding traffic lanes to existing roads.
    We are stewards of our own community and Congress ought to 
recognize that by vesting communities with sufficient authority and 
latitude to undertake certain types of transportation projects in a 
more efficient manner.
    Now that I've outlined some of the difficulties we face in working 
with one Federal law, let me move on to a more pleasant topic--how the 
Federal Government can assist us in building the infrastructure 
necessary for this region to grow and prosper.
    A roadless State, such as Alaska, needs be able to apply 
traditional transportation funding to some non-traditional uses. 
Specifically, we are requesting that TEA-21 funds be allocated for 
expenditure on marine component infrastructure. I am not talking about 
funding for one-time projects, but rather we seek a reoccurring revenue 
stream for marine projects. More than 80 percent of the goods that flow 
into Alaska pass over the docks of the Port of Anchorage. Our 
municipality is currently pursuing a major redevelopment program at the 
Port so it can adequately serve our community, as well as the rest of 
the State, for the next half century. You'll hear more about this 
project from the Port, but I wanted to touch on the need for programmed 
Federal assistance on an ongoing basis, just like most MPOs receive for 
roads. Our waterside facilities are critical to this community, the 
State and the Federal Government.
    I would also like to reinforce the critical need for a road 
connection across Knik Arm to the Matanuska-Susitna Borough. Anchorage 
is a city hemmed in by geography and Federal land ownership. While we 
continue to build our economy and city, we are painfully aware of the 
diminishing amount of land available for development in the Anchorage 
Bowl. As an example, Anchorage has less than 7,000 acres of potential 
industrial land remaining within the entire
    Municipality. By comparison, the Mat-Su Borough has hundreds of 
thousands of undeveloped acres just a short mile across the water. Our 
two economies are already linked because many of that borough's 
citizens are part of our workforce in Anchorage. But in order for the 
Mat-Su Borough to take advantage of our existing infrastructure for its 
own economic development, it needs this road/rail connection as much as 
we do.
    As you are aware, Metropolitan Planning Organizations, or MPOs, are 
chartered by the Federal Government to make transportation-planning 
decisions within their geographic boundaries. Our MPO is known as 
Anchorage Metropolitan Area Transportation Solutions, or AMATS. It 
would be extremely valuable to our planning process to be able to take 
into account the transportation needs of local governments that are 
adjacent to our own. In our case, that would be the Matanuska Susitna 
Borough and the Kenai Peninsula Borough. Unfortunately, neither of our 
sister municipalities qualify for MPO status due to population density 
and are not granted the same level of self-determination that we are. 
We need, therefore, Federal recognition to assemble and seek funding 
for regional priority projects in conjunction with our next store 
neighbors.
    We also believe that the funded allocation to MPOs should be by 
direct transfer from the Federal Government. Passing the money through 
State agencies is simply inconsistent with the ideal of local control 
in the planning and implementation of transportation solutions. As part 
of the State budget process, the non-Federal share could be provided by 
statute for any community with an approved MPO.
    I certainly appreciate the opportunity to address the committee and 
share some of our ideas on transportation issues that affect the State. 
I also want to express my appreciation for the committee's work in 
Alaska.

                               __________
  Statement of Cheryl Gardner Coppe, Executive Administrator for Port 
        Development Municipality of Anchorage, Port of Anchorage

    Madame Chairperson and members of the committee, thank you for this 
opportunity to present testimony on behalf of the Mayor of the 
Municipality of Anchorage, George Wuerch and the Director of the Port 
of Anchorage, Former Governor William Sheffield. I will discuss the 
regional and national importance of the Port of Anchorage and the need 
for Federal funding to support the rehabilitation and expansion of the 
Port through its Port Intermodal Expansion Project.

Introduction
    The Port of Anchorage is a freight and passenger marine 
transportation facility of approximately 130 acres. It is Alaska's 
regional port a department of the Municipality of Anchorage, but self-
supporting. The Port receives no tax support from the Municipality and, 
in fact, pays an annual assessment in lieu of taxes to the Municipality 
from its net profits.

Economic Impact
    The Port is the keystone and hub of a massive multimodal 
transportation system that helps Alaskan businesses remain competitive 
with their counterparts in the Lower 48. It is estimated that the Port 
contributes approximately $725 million annually to the State's economy. 
For this reason, the Port is considered a major economic driver, 
serving not only the Municipality of Anchorage. 80 percent of the 
State's geographical area receives cargo from the Port that is 
transshipped by truck, train, plane and barge to final destinations 
throughout the State. The population of this same area receives more 
than 90 percent of its consumer goods through the Port of Anchorage. 
Additionally, the Port of Anchorage weighs significantly on the 
economic security of the Pacific Northwest. The flow of cargo to and 
from the Port wields potent indirect economic impacts that affect the 
Puget Sound area of Washington because Port of Anchorage operations 
drive more than one third of all the cargo operations at the Port of 
Tacoma.
    Not large by international standards, the Port is recognized as one 
of the most efficiently operated container ports on the West Coast and 
consistently ranks in the top 25 container ports in North America for 
the volume of cargo moved through its facilities. Four million tons of 
cargo move annually across the docks and through its marine terminals.
    The Port's petroleum terminals serve the communities of South 
Central and Western Alaska. Jet fuel used by Elmendorf Air Force Base 
and Ted Stevens Anchorage International Airport also moves through the 
Port's petroleum terminals and is transported by pipeline to those 
facilities.

National Security Impact
    Local military planners recognize the Port of Anchorage as a 
``critical node'' and a ``strategic port'' under certain Department of 
Defense (DOD) contingency planning scenarios. Because of its strategic 
value, location and proximity to neighboring military commands at 
Elmendorf Air Force Base and Fort Richardson, the Port of Anchorage is 
a critical component for certain DOD strategic activities concerning 
mobilization planning.
    For these reasons, the Port of Anchorage entered into a Federal 
Port Controller service agreement on April 27, 1987, which is still in 
effect. Additionally, the Port maintains close professional working 
relationships with the Military Traffic Management Command (MTMC), 
Military Sealift Command (MSC), and all local and statewide military 
logistics and transportation officials.
    During March, 2003, the Port of Anchorage received letters from Lt. 
General Carrol Chandler, Commander of the Alaskan Command, and Major 
General John Brown of U.S. Army Alaska. These letters endorsed the Port 
Intermodal Expansion Project. In particular, the Road and Rail, Barge 
Terminal and Harbor Deepening phases of the project will support the 
rapid deployment of the Army's new Stryker Brigade Combat Team and 
enhance the Department of Defense's ability to more rapidly process 
troops and equipment for any worldwide deployment. These near-term 
phases of the Port's expansion plans are especially important to the 
Stryker Brigade because its operational capability is scheduled for May 
2005.

Port Intermodal Expansion Project
    The Port is preparing for the near and long-term future needs of 
both the State and nation by initiating extensive rehabilitation and 
new construction in multiple phases over an expedited schedule from 
2003 through 2008 under its Port Intermodal Expansion Project. The 
Maritime Administration (MARAD) recently became the Federal Lead Agency 
for this project through special legislation passed in the 2003 
Consolidated Appropriations Resolution.
    The Port states with pride that the Port Expansion development and 
administrative concepts it and MARAD will employ are unique and 
audacious especially when compared to the customary U.S. Department of 
Transportation project delivery processes. This is the first major 
marine transportation infrastructure project ever sponsored and 
supported by MARAD and the U.S. Department of Transportation. For this 
reason, the Maritime Administration and the Port sought to make this 
arrangement an ``innovative partnership'' that integrates modes of 
transportation water, road and rail into a cohesive system, 
exemplifying the type of intermodal, public-private, commercial-
military initiative that will define the U. S. Marine Transportation 
System in the 21st century.
    The phases of this project include but are not limited to:
    <bullet>  Road and rail access development that will provide direct 
loading of containers from vessels onto rail cars;
    <bullet>  Barge terminal facility and storage areas that will 
accommodate military high-speed sealift capability, movement of heavy 
equipment and oilfield module construction;
    <bullet>  A 1,200-foot multipurpose dock designed to handle a 
variety of vessels, including cruise ships. The dock also features new 
petroleum piers designed for deeper-draft, double-hull tankers that 
will call at the Port;
    <bullet>  Rehabilitation and widening of the existing dock to meet 
increasing weight requirements and accommodate three new 100-foot gauge 
container cranes;
    <bullet>  Reconfiguration of all cargo transit, storage yards and 
terminals and
    <bullet>  Deepening of the authorized dredge depth of the Anchorage 
Harbor and Navigation Channel from--35 feet at low tide to--45 feet. 
This project phase will occur in partnership with the U.S. Army Corps 
of Engineers.
    The total cost for all phases of the Port Intermodal Expansion 
Project is estimated to be approximately $227 million. Proposed project 
shares are: 38 percent NonFederal; 27 percent Appropriations Earmarks 
and 35 percent from TEA-21 Reauthorization. The Port currently has $55 
million available as contribution toward the anticipated nonFederal 
portion of Port Expansion costs.

Conclusion
    In conclusion, implementation of the Port Intermodal Expansion 
Project will provide the major transportation infrastructure necessary 
to move Alaska's Regional Port--the Port of Anchorage--into the future, 
meeting commercial and military needs of the State, the region and the 
Nation. This project can also become the benchmark for Marine 
Transportation System development throughout the Nation. However, the 
ultimate success of this project relies on the support of the members 
of this committee, their colleagues in both Houses of Congress and 
their collective commitment to provide the Federal financial resources 
necessary to make it a reality.
    Madame Chairperson and members of the committee, this concludes my 
statement. I again thank you for the opportunity to testify today on 
behalf of the Municipality of Anchorage and the Port of Anchorage. I 
will be pleased to answer any questions you may have.

                               __________
   Statement of Carvel Zimin, President, Briston Bay Borough Assembly

    I serve as President of Bristol Borough Assembly. We have five 
assemblymen, a mayor, and a manager. We were the first Borough 
municipality to form in the State of Alaska, in 1962.
    My focus today will be on Bristol Bay Borough resolution 2002--16, 
priorities one and six.
    First the Naknek River Bridge Project. The Borough Assembly agrees 
that the single most important thing that could happen to enhance 
economic growth of the borough is ``a bridge across the Naknek River.'' 
Thus its No. 1 ranking.
    I personally hand delivered our request to our delegation in 
Washington, DC. As you see before you in a letter to the honorable Don 
Young dated March 1, 2003, and a Transportation Project Evaluation 
Criteria Form.
    We believe this project will bring ``real benefits to both the 
region and the State'' as a part of the State of Alaska's ``Southwest 
Alaska Transportation Plan.''
    Residents of the region are in strong support of the project.
    Bristol Bay has had some of the world's largest returns of wild, 
natural salmon, including the much-prized Sockeye or Red Salmon. 
Commercial harvesting of Sockeye has occurred since the 1890's. There 
are still numerous large fish processing facilities that will benefit 
from completion of a bridge.
    Also residents of Bristol Bay would benefit greatly. Currently 
school children from South Naknek, 6th through 12th grades, are flown 
daily to and from South Naknek to attend high school in Naknek.
    Employment opportunities for Bristol Bay Borough residents would 
improve along with health care access, and the availability of an all 
weather airport by South Naknek residents.
    Public Works, Public Safety, Fire and EMS, Community Development 
and Support Services, Solid Waste, Schools, Ports, Libraries and 
Quality of Life things would benefit from combining services at a cost 
savings to the borough, region, and industry.
    We would like to see exploration for shallow natural gas, 
development, and transfer to our local utility for cheap electrical 
generation.
    Finally on 6: Improvements to our existing Borough dock would help 
tremendously as we are spending close to $200,000.00 per year in up-
keep to our main port of entry for freight.
    Normal life span of a concrete and steel piling dock is 20 to 25 
years. We are experiencing normal wear at 22 years.
    We average 21st ranking for pounds and dollars of all U.S. ports. 
This is only canned fish; it does not include containers of frozen 
salmon shipped to Dutch Harbor, Alaska.

                               __________
         Statement of Jim Cooper, Mayor, city of Palmer, Alaska

    Thank you, Madam Chair and committee members, for providing this 
opportunity for testimony on transportation infrastructure needs in 
Alaska. On behalf of the city of Palmer, I welcome you to our community 
and hope this hearing and your time in our community is fruitful and 
informative.
    The city of Palmer is not a large community, but it is 
representative of so many communities in the United States that are 
experiencing growth and trying to meet the challenges of building and 
improving local transportation infrastructure. Palmer has the highest 
population density of mid-sized Alaska cities by a factor of two. 
Palmer is experiencing an annual growth rate of 7 percent, and the 
capacity of our transportation infrastructure is not keeping up with 
that growth.
    Palmer is served by the Glenn Highway from the north and south, the 
Old Glenn Highway from the east, and the Palmer-Wasilla Highway from 
the west. The Glenn Highway, a Federal interstate highway, passes 
directly through Palmer. All of these roads, including local Palmer 
city streets, have experienced tremendous increases in usage in recent 
years, and all of these roads are in need of capacity and safety 
improvements.
    Traffic on the Glenn Highway south of Palmer has increased one 
hundred percent in 10 years and has reached levels that suggest it be 
improved from its present two lanes to four lanes. Traffic on the 
Palmer-Wasilla Highway has increased fifty percent in 10 years, 
creating the need for either a major capacity improvement or 
construction of another parallel route.
    The need for these projects has been identified for some time. 
These projects and many others are listed in the State of Alaska's 
statewide Transportation Improvement Program, or STIR Yet years pass, 
traffic and congestion increases, and these projects are bumped back 
again and again in the STIP schedule, often due to an overall level of 
funding that is not sufficient to address transportation needs on a 
timely basis. We believe that the current level of Federal highway 
funding is not adequate to meet the growing, and increasingly deferred 
transportation needs of our area.
    As we plan for improvements to the Glenn Highway through Palmer, a 
Federal interstate highway, there is a compelling need to design those 
improvements so they enhance, rather than divide our community. Also, 
the Glenn Highway has recently been designated as a National Scenic 
Byway. Because of this designation and to recognize the needs of our 
community, the city of Palmer, in cooperation with the State of Alaska, 
hopes to develop an urban boulevard design for the Glenn Highway 
through Palmer. This approach will combine pedestrian facilities and 
landscape improvements with roadway capacity improvements so this 
project fits into our community.
    In regards to local roads, Palmer has had several local projects 
listed in the STIR The City has worked with the Alaska Department of 
Transportation and Public Facilities to construct some of these 
projects. Our success in some of these projects has been due to a high 
level of local participation. The City believes some local projects can 
be done on a more timely, cost effective and efficient basis if project 
funds are transferred to the local municipality through a memorandum of 
agreement.
    There are other important transportation elements that deserve 
continued attention and funding. The city of Palmer is involved in a 
project funded through a Federal Highway Administration Transportation 
and Community and System Preservation (TCSP) program grant to improve 
the Alaska Railroad right-of-way through Palmer. This Urban 
Revitalization project, made possible by a partnership of State and 
Federal agencies and the Alaska Railroad, will construct pedestrian and 
bicycle pathways, parking areas, and other improvements to enhance 
alternate means of local transportation in our community. This is also 
a project which will be an important part of an area-wide system of 
trails connecting Sutton to the north, the Butte and Knik River areas 
to the east, and Wasilla and Big Lake to the west. To the south, the 
project will connect to a new park-and-ride facility soon to be 
constructed at the Alaska State Fair in Palmer using Federal Transit 
Administration funds.
    In summary, we stress the need for continued and increased levels 
of Federal funding for transportation improvements in Alaska, and for 
the continuation of programs that allow close coordination of 
transportation improvement planning with the needs of local 
communities.
    Thank you for the opportunity to testify before you today, and 
thank you again for convening this hearing in our community.

                               __________
        Statement of Mayor Dianne M. Keller, city of Wasilla, AK

    Madame Chairman, and members of the committee, my name is Dianne 
Keller. I am the Mayor of the city of Wasilla, one of the fastest 
growing cities in the fastest growing region of Alaska. The 2000 census 
shows that Wasilla has grown 35.7 percent since 1990 and 15 percent 
last year. This is more than double the statewide Alaska growth rate of 
14 percent during the same decade. That growth rate is predicted to 
continue at least 20 years into the future. With that growth comes an 
unprecedented demand for basic services including roads and water and 
sewer, the provision and funding of which this committee has direct 
oversight.
    This unprecedented growth has also led to a major commuting 
phenomenon from Wasilla to Anchorage where many of the residents of 
Wasilla and the surrounding borough work. Approximately 38 percent of 
the Borough workforce commutes and this affects Wasilla greatly. Much 
of this workforce commutes directly through Wasilla twice a day. The 
growth and accompanying congestion is situated in Wasilla and the core 
area as well as north of Wasilla. These commuters have no choice but to 
commute directly through our city due to the current infrastructure 
that is in place today.
    Madame Chairman, my message to you is simple. We need help and we 
need it quickly. I know that the State has its responsibilities under 
the highway trust fund formula, but it is clear that the State has its 
hands full. Wasilla is ground zero for traffic congestion and I would 
request that the committee help the State and our local governments to 
solve this problem. Here is how I urge this committee to provide the 
necessary assistance:
    1. Fully fund the Highway Trust Fund under the reauthorization of 
the Transportation Equity Act. This includes insuring that 5 year 
funding will be available for projects in our area.
    2. Provide a fair formula for ``small States'' which have large 
needs even though they may have smaller populations.
    3. Fund Construction of the Knik Arm Crossing.
    4. Provide funding for some local projects, which will assist 
cities like Wasilla, Palmer and Houston. One such project is the 
transportation corridor that will allow traffic to travel around 
Wasilla with exits into the city of Wasilla. The transportation 
corridor should include road and railroad access that will allow all 
forms of transportation to travel through the Wasilla area more safely.
What This Means for Wasilla
    No population in the State has a greater stake in passage of a 5-
year Transportation Equity Act reauthorization than Wasilla. We can 
only have some hope to deal with our local traffic congestion if this 
bill passes and passed on time. If the Knik Arm Crossing is built, then 
an even greater congestion problem in and out of Wasilla may be 
avoided. Right now, every car which travels from to Anchorage to 
Fairbanks has no alternative except to commute directly through 
Wasilla. This local commuting provides unmanageable traffic congestion 
during the morning and afternoon rush hours. The stream of traffic is 
long and dangerous for drivers and pedestrians. Additionally, this 
makes it very hard for merchants to develop a well-managed economy 
because traffic becomes gridlocked and people want to avoid these 
areas. Employment had grown 73.6 percent in the area in the last 
decade. We need your assistance to help plan and manage this traffic 
today and into the future.
    Madame Chairman, I have submitted for the record two projects which 
appear to be local projects, however they will assist with the regional 
transportation needs of the Mat-Su Valley. The first, Mack Road Drive 
construction and improvements will be the principal exit and approach 
from Wasilla to the Knik Arm bridge crossing. This project will also 
provide access to the newest major regional project, the city of 
Wasilla Multi-Use Sports Complex. The City is very proud of this 
project; it is a $14.7 million project that was locally bonded. This 
complex will also be an emergency evacuation center for residents of 
the core area in case of a disaster. We have just begun the land 
clearing for this project and after completion Mack Road will open up a 
new access point to this project as well as creating a new access point 
to the Knik Arm bridge crossing. The Mack Road project has been 
nominated to the State Transportation Improvement Plan (STEP).
    The other project the city of Wasilla has requested funding for is 
the upgrading of Lucille Street. This project is also a major road 
upgrade that will reduce the amount of traffic on the Parks highway and 
Main Street in Wasilla. I have discussed this project with the Mat-Su 
Borough and we all agree that we need more North-South road corridors 
for the public to use for daily commuting as well as for evacuation 
routes in case of emergencies like the Miller's Reach Fire in 1996. 
Again, it is critical that the committee provide some mechanism for 
projects such as these be to be included in the Transportation Equity 
Act.
    Madame Chairman, I do not want to take too much of this committee's 
time. I know you have had a lot of witnesses. However, as a resident of 
the Mat-Su Valley and the Mayor of Wasilla, I want to thank you for 
taking the time to come to the Mat-Su valley to see our infrastructure 
needs in person. We believe that the future of South Central Alaska is 
critical to the future of our State and where the majority of growth 
will continue in the near and far future. Thanks again for holding this 
hearing and allowing me to make written and verbal testimony on the 
needs of the Matanuska-Susitna Borough.

                               __________
                  Alaska State Senator John J. Cowdery

                                                     April 8, 2003.

TO: The U.S. Senate Environment and Public Works Committee
    Thank you for the opportunity to testify before this committee, and 
thank you for taking the time to hold this field hearing here in 
Alaska.
    Economic development is critical for Alaska. The foundation of this 
development is transportation infrastructure: roads, railroads, 
seaports and airports.
    I strongly support the goals of the Denali Commission as expressed 
to you by Lt. Gov. Loren Leman.
    I respectfully request that you especially consider the value a 
Knik Arm Crossing will have for Alaska in connecting two of its largest 
population centers: Anchorage and the Matanuska-Susitna Borough.
    Today, these regions remain largely separated because of lengthy 
travel time and road choke points. A highway and rail bridge from the 
heart of Anchorage to the open land of Point Mackenzie will permit the 
kind of environmentally sound development Alaska needs.
    In addition, I believe it is important to complete ``the last 
transcontinental railroad'' by extending the Alaska Railroad to Fort 
Greely, with the final goal being a complete connection to the North 
American rail system.
    I also strongly support: 1. the construction of pioneer roads, 
beginning with a road from Nenana to McGrath, and 2. the expansion and 
upgrade of the harbor at Whittier. I believe pioneer roads can prove 
valuable in improving the lives of many rural Alaskans. With road and 
rail connection in place, and proximity to Anchorage, a world-class 
harbor at Whitter could prove a gateway to the export of Alaska's 
resources and import of goods from across the Pacific Rim.
            Submitted by:
                            Senator John J. Cowdery, Chair,
                                   Senate Transportation Committee,
                        Senator for Lower Hillside-South Anchorage.

                               __________

        Statement of Loretta Bullard, President of Kawerak, INC.

    Thank you Senator Murkowski and members of the committee for the 
opportunity testify. My name is Loretta Bullard and I am President of 
Kawerak, Inc. Kawerak is a regional Native non-profit corporation and 
consortium of 20 federally recognized tribes in the Bering Straits 
Region of northwestern Alaska.
    Let me open my testimony by saying thank you. Thank you for holding 
this hearing in Alaska and for giving us this opportunity to present 
our needs and recommendations. We're pleased that Congress is focusing 
attention on our rural Alaska transportation needs.
    Kawerak is one of the few tribal organizations nationally and the 
only tribal consortium which has contracted to perform the entire 
Bureau of Indian Affairs ``Indian Reservation Roads'' (IRR) program 
under the Indian Self-Determination and Education Assistance Act. There 
is a distinct difference between contracting to construct a particular 
Transportation project and compacting to provide the entire IRR 
Program. Basically, when you compact the entire program, the compactor 
is responsible for the full spectrum of the program, from planning, 
inventory and long term transportation plan development, to project 
selection, design, scheduling and construction. Kawerak contracted the 
entire IRR program in 2001. Effective in 2003, we rolled the IRR 
program into our self-governance compact.
    I served as one of Alaska's tribal representatives to the national 
negotiated Rule-making Committee for the IRR program. This committee 
was tasked to develop program rules and a funding formula. We just 
completed the final meeting in late March, 2003 and anticipate the 
final regulations will be published in time for the 04 BIA IRR fund 
distribution.
    Alaska's ground transportation system is very undeveloped in 
comparison to the rest of the United States. Most villages in rural 
Alaska are not connected to the highway system. By noting this, 
however, we are not suggesting that the leading transportation need in 
rural Alaska is for large-scale connecting routes between villages 
(though the need may exist in some areas). Rather, we see the greatest 
need in the area of basic infrastructure development at the village 
level.
    Many rural Alaska village streets are no more than unimproved dirt 
paths, and are Third World compared to similarly sized communities in 
the Lower 48 States. Virtually any development a village wants to do, 
whether it is new housing units, a new landfill, or bulk fuel tanks, 
access to a water source, a new sanitation lagoon or gravel site, 
requires road development. Unimproved village streets with no winter 
snow removal not uncommon in our smaller villages turn into impassable 
quagmires during the spring. Once the roads/beaten paths dry out, the 
mud turns to dust. Dust from traffic on gravel and unimproved streets 
fouls subsistence meat racks, berries and other vegetation and is a 
major health hazard for children and the elderly in many of our 
villages. I have attached photos of ``streets'' in our villages 
(attachment 1) just to give you a sense of what is actually on the 
ground in rural Alaska.
    Because there are no roads between communities, snow machines are 
routinely used for inter-village long distance winter travel. There is 
a huge need in Alaska for winter trail staking. Each year lives are 
lost due to snow machiners simply losing the trail, falling through 
river or sea ice, or freezing to death in arctic blizzard conditions.
    Unfortunately, our small city governments have little tax base and 
our tribal governments have none at all. Capital improvements are 
dependent on outside funding. Village road projects are rarely 
constructed by the State DOT, because in many instances, villages are 
not able to meet the match requirement.
    We respectfully request your assistance to help our villages 
develop local infrastructure and to literally get us out of the mud and 
into the 21st century. Following are our recommendations.

Indian Reservation Roads Program
    We encourage Congress to make amendments to the Indian Reservation 
Roads program during the reauthorization process. IRR funding, when it 
is available, is an ideal funding source for village Alaska because it 
can be used for a local match to leverage other funding sources. IRR 
funds and projects can also be administered through Indian Self-
Determination Act contracts, which means that Native hire rules apply 
and the project can be run locally. However, there are many unresolved 
problems with the IRR program, not least of which is insufficient 
funding and unequal access to the program.
    The IRR Negotiated Rulemaking Committee worked very hard to develop 
rules that would correct some of the problems in the program, including 
inventory problems. However, we were not able to address all the 
problems in the negotiated rulemaking process and so are presenting 
recommendations for your consideration. .
    Inventory Amendment. One of the major problems with the existing 
IRR program is that the funding formula used to distribute funds 
nationally is based primarily on an inventory of IRR routes, and the 
inventory has gaping holes. For Alaska villages, a true inventory has 
never been prepared. Alaska's ``inventory'' comes from a 1993 BIA Area 
Plan, which was a planning document compiled from project requests 
submitted by the villages. At the time, the villages were told to 
identify one needed project. About 70 villages were not even included 
in the 1993 Area Plan. In addition to missing entire Native 
communities, the BIA's inventory data has other flaws such as simply 
not having complete or current construction cost data for large parts 
of Alaska.
    We were not able to reach consensus on major changes to the 
existing IRR funding formula, but one of our successes was that for the 
years fiscal year 2000 through 2002, additional funds were made 
available to tribes for planning, capacity building, and related 
transportation activities. This was $32,500 per tribe in 2000 and 
$35,000 in 2001 and 2002. Prior to this allocation, Alaska Native 
Villages received less than $3,000 per year to do transportation 
planning from the 2 percent Tribal Transportation Planning funding 
pool, which wasn't enough to do much of anything.
    This influx of funding meant our villages were finally able to 
begin to fully participate in the IRR program--most villages that 
received the funds used them to develop their first true inventory of 
roads and transportation needs. Kawerak did this collectively for our 
villages, but many other villages hired consultants or did the work 
themselves.
    However, once inventory updates began to be submitted to BIA on a 
large scale, we found that the BIA was applying a ``2 percent'' limit 
to inventory increases. Having made funds available specifically for 
inventory updates and transportation planning activities, the BIA DOT 
applied a 10 year old policy to accept only 2 percent of the submitted 
inventory increases, calculated annually on a per BIA Region basis. In 
Alaska we were limited to 365 miles in the 2001 update (2 percent 
accumulated from 1993), and since then, it is about 45 miles per year. 
Further, many of the inventory submittals made were not acted upon or 
were returned. Imagine the frustration of the villages in Alaska that 
used these funds to update their inventories--as they were supposed to, 
only to learn after months of waiting that their inventory submissions 
had not even been processed.
    The current formula and inventory system is based on an implicit 
BIA policy decision made more than 10 years ago which concluded the 
basic BIA road system had already been built and that future IRR funds 
would be used to improve the existing system. The system was defined as 
a ``BIA'' system rather a tribal system. The premise was false, since 
many Alaska villages had never received IRR funding or construction at 
all, much less had their basic road needs identified or addressed. 
Alaska Native village were just as eligible by law for IRR services as 
any tribe in the Lower 48 States, but had barely been served at all. We 
are concerned that, while we specifically excluded incorporating the 2 
percent policy into the draft IRR regulations, BIA will continue to 
apply the policy, therefore, limiting Alaska to receiving funds based 
on an extremely incomplete and inaccurate inventory.
    Accordingly, we are requesting Congress to enact a specific fix to 
Alaska's inventory problem by requiring that village streets and 
primary access routes be included in the BIA inventory, with a 
limitation on access routes such that only the route segments within 
the village corporation boundaries be included. I have attached a copy 
of this language to my written testimony (attachment 2). We believe 
this is necessary to put Alaska on an equal footing with tribes in 
other areas. In the Lower 48 States the basic inventory of most tribes 
had been developed by 1993. In Alaska it was not and the application of 
the 2 percent policy, limit unfairly limits our villages to a miniscule 
representation of actual need.
    Appropriations. Kawerak strongly supports increasing the national 
IRR appropriation to at least $500 million annually. The IRR program is 
seriously under-funded. The BIA's data identifies the IRR construction 
need across the country at $10.8 billion, yet under TEA-21, the IRR 
authorization level was $275 million annually. It would take about 40 
years to meet the need at that rate. Funding for IRR roads did not 
proportionately increase as much as State funding did under TEA-21.

NCAI Proposal
    The National Congress of American Indians (NCAI) sponsored a tribal 
working group that developed a series of recommendations for 
legislative improvement to the IRR Program. Kawerak staff participated 
in this workgroup, even though we are not members of NCAI, as did 
several other representatives from Alaska.
    In addition to requesting funding increases to the IRR program and 
the BIA Roads Maintenance program, which we support, the NCAI draft 
makes a number of programmatic changes. We strongly support the 
programmatic changes included in the NCAI bill, as well as the funding 
increases.
    To summarize these briefly, the NCAI bill would:

    <bullet>  Establish a pilot program to enable tribal contractors to 
contract directly with the Federal Highways Administration rather than 
through BIA. We strongly support this, simply because it would 
eliminate a ``middle man'' and reduce the bureaucratic processes 
necessary to get things done.
    <bullet>  Clarify that the IRR program is fully subject to PL 93-
638 contracting on the same basis as other BIA programs. This should 
not be necessary after TEA-21, but it still is because the BIA 
continues to take the policy position that it can simply label certain 
functions as beyond the reach of PL 93-638 contracting without going 
through the analysis of whether the activity is question really has to 
be performed by a Federal employee. Normally under PL 93-638, a 
function or activity of the BIA is subject to tribal contracting unless 
it is inherently Federal for constitutional or statutory reasons.
    <bullet>  Continue the $35,000 per tribe allocation for 
administrative capacity building.

    The above is just a portion of the NCAI proposal, which was 
intended to be a comprehensive overhaul of the IRR program. It has wide 
support nationally. Although much of the proposal deals with funding 
increases, I would like to stress that the programmatic changes are 
important as well.
    Maintenance Funding. I would like to highlight maintenance funding. 
The NCAI proposal would create a new IRR maintenance program within the 
highway bill, funded at $70 million nationally. It also expresses 
congressional intent to increases the DOI appropriation for roads 
funding to $127 million nationally, a $100 million increase from 
current levels.
    Regardless of what amounts are reasonable to expect in funding 
increases, poor maintenance of IRR routes is a critical problem. Both 
Federal Lands Highways and BIA have a responsibility to ensure that 
projects constructed with IRR funds are adequately maintained. On most 
IRR facilities, the responsible party for maintenance is the BIA. But 
the BIA road maintenance program is funded nationally at only $26-27 
million per year. In Alaska very few communities even have access to 
these maintenance funds. Road Maintenance is in the Tribal Priority 
Allocation (TPA) part of the DOI budget, which means that it is 
effectively buried within the overall BIA budget.
    Obviously, the construction need for IRR roads is never going to go 
down if they are not being adequately maintained. Nationally the IRR 
construction program, which should be at least partially for new road 
construction, ends up being spent on reconstruction projects that would 
not be necessary if maintenance was adequate. We hope that some 
increases can be targeted specifically for maintenance.

S. 295, Denali Transportation System Act
    We support and appreciate S. 295, which would authorize 
appropriations of $450 million per year to the Denali Commission to 
develop rural road infrastructure in Alaska. The Denali Commission has 
been very effective in targeting dollars to rural needs, and in cutting 
through Federal red tape that often exists in regard to construction 
projects.
    However, we have some concern that if funding at this scale becomes 
available, some of the political dynamics driving Denali Commission 
activity may change. We would hope that the legislation, or the Denali 
Commission itself through its internal processes, will ensure that 
local decisionmaking drives the project decisions and that the funding 
not be devoted simply to large-scale access projects. We recommend that 
a major focus of these funds should be local village infrastructure 
needs.
    Rather than simply comment on S. 295, we participated in an Alaska 
Federation of Natives workgroup that developed separate proposed 
legislation, which we have captioned the ``Alaska Native Village 
Transportation Program.'' We refer to this as our ``get us out of the 
mud'' proposal.

Alaska Native Village Transportation Program
    A conceptual version of new legislation for an Alaska Native 
Village Transportation Program is attached to my written comments. 
(attachment 3) We view this as something that might be melded into the 
Denali Commission bill in some fashion, or which could be a new stand-
alone program essentially supplementing the IRR program.
    Basically, the proposal would be to appropriate funding starting 
with $8 million in 2004, $15 million in 2005, and increasing in $5 
million increments until capping at $30 million in 2008 and 2009. Some 
key features are:
    It would establish Native transportation authorities in each of the 
12 ANCSA regions, which could be the existing regional for profit or 
non-profit corporations or a new regional tribal entity. The regional 
transportation authorities would develop regional transportation plans 
and prioritize projects.
    It would establish a statewide Native transportation commission 
made up of appointees from each of the regional transportation 
authorities that would determine funding allocations among the regions 
and coordinate transportation planning among the regions and other 
government entities.
    Funding would be administered by FHWA, but subject to PL 93-638 
contracting rules, which would include Native hire, the ability to 
match funds, etc.
    Funding is phased in order to enable the transportation authorities 
and statewide commission to get started and in recognition of the fact 
there is a long lead-time in project development and design before 
roads go to construction.
    Up to 15 percent of funds for construction projects could be 
retained for future maintenance.
    In developing this proposal, one of our major concerns was simply 
that if there is an additional influx of transportation funding for 
Alaska, some portion of funds should be specifically targeted to local 
village projects. At construction costs in excess of $1 million per 
mile for new gravel roads built to Federal standards, even a large 
influx of funds could be used on just a few large-scale projects.
    Although the creation of regional transportation authorities and a 
statewide commission may seem cumbersome, we feel that this is a 
realistic balance between the need to spread funding to different parts 
of the State, the huge size and differing topography and climate of the 
State (map attachment 4), the need to preserve local control and 
decisionmaking, while still effectively prioritizing funds and 
retaining economies of scale.
    We have attempted to keep the good features of the IRR program 
without simply asking for an Alaska set-aside of IRR funds. We feel 
that the latter would unduly disrupt the national IRR program, and a 
set aside of IRR funding would still be subject to all of the BIA 
bureaucracy.
    In conclusion, thank you for the opportunity to testify. If we can 
further explain our legislative proposals, please feel free to call on 
us at any time. Thank you.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
